<html>
<title> - NATO AT 70: AN INDISPENSABLE ALLIANCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 NATO AT 70: AN INDISPENSABLE ALLIANCE

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2019

                               __________

                           Serial No. 116-13

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-612PDF                   WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d7d624d6e787e796568617d236e626023">[email&#160;protected]</a>                                

                      COMMITTEE ON FOREIGN AFFAIRS

                  ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas          

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Flournoy, Michele, Co-Founder and Managing Partner, Westexec 
  Advisors.......................................................     7
Chollet, Derek, Executive Vice President and Senior Advisor for 
  Security and Defense Policy, The German Marshall Fund of the 
  United States..................................................    13
Lute, Douglas, Senior Fellow, Project on Europe and the 
  Transatlantic Relationship, Belfer Center for Science and 
  International Affairs..........................................    22
Brzezinski, Ian, Resident Senior Fellow, Transatlantic Security 
  Initiative, Atlantic Council...................................    27

                                APPENDIX

Hearing Notice...................................................    74
Hearing Minutes..................................................    75
Hearing Attendance...............................................    76

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Cicilline.    77
Materials submitted for the record from Chairman Engel...........    79
Materials submitted for the record from Chairman Engel...........    90

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Question submitted from Representative Wagner....................   106

 
                 NATO AT 70: AN INDISPENSABLE ALLIANCE

                       WEDNESDAY, MARCH 13, 2019

                           House of Representatives
                       Committee on Foreign Affairs
                                                     Washington, DC

    The committee met, pursuant to notice, at 10:07 a.m., in 
Room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Mr. Engel. The hearing will come to order. Let me first of 
all welcome our witnesses and members of the public and the 
press. Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    Today's hearing takes place just a few weeks from the 70th 
anniversary of the establishment of the North Atlantic Treaty 
Organization known as NATO. There are many pressing issues 
facing NATO today, but for us to really assess where the 
alliance stands in the year 2019, we need to take a step back 
and look at the history of this great political and military 
relationship.
    The first half of the 20th century was marked by periods of 
widespread suffering, instability, and fear. And at the start 
of both World Wars, the United States stayed out of the fray, 
grateful that the Atlantic Ocean kept us far away from the 
terrors in Europe and the rest of the world. By putting our 
heads in the sand and trying to stay away from the conflicts, 
those wars grew into direct threats to our own economy, 
security, and very way of life. Not to mention the immense 
suffering that happened while we waited on the sidelines, 
including the unprecedented horror of the Holocaust.
    So after World War II, American leaders understood that it 
was in our strategic interest, and also our moral obligation, 
to band together with countries that shared our commitment to 
democracy, human rights, and the rule of law. We joined with 
European democracies to form NATO, an organization built on the 
principle that we are stronger when we stand together.
    Now, 70 years later, NATO is widely recognized as the most 
successful political-military alliance in history. Its 
achievements include facing down Soviet communism and winning 
the cold war, advancing freedom and democracy in Europe, 
stopping genocide and bringing peace to the Balkans, and 
fighting the international threat of terrorism. And in the 
United States, across the decades, our transatlantic 
partnership has consistently won overwhelming bipartisan 
support.
    But a few years ago things started to change. Since before 
he even came into office, President Trump has taken 
opportunities to denigrate our allies and undermine NATO in his 
personal dealings with European leaders, his policy proposals, 
and rhetoric. I witnessed that personally when I attended the 
Munich Security Conference last month and heard from leader 
after European leader that America's word and security 
guarantee underpinning the transatlantic alliance is now being 
questioned, while President Trump often depicts the NATO 
partnership as some kind of one-way street where the United 
States bears inordinate cost with little benefit, and that is 
just not true.
    Our European partners have contributed immensely to our 
shared missions and they have come to America's defense when we 
were most in need. After September 11th, 2001, our allies stood 
with us. The only time, I might say, in NATO's history that 
Article 5, the principle that an attack on one is an attack on 
all, has been invoked. And in recent years, Europeans, 
Canadian, and American troops have fought bravely together side 
by side to defend the national security of all allies.
    One of President Trump's most frequent criticisms is that 
allies habitually free-ride and that allies hosting American 
military forces do not pay the United States enough money. 
Earlier this week, we learned about his latest proposal to 
address this concern, the so-called cost plus 50 plan. In this 
system, allies would pay the full cost of stationing American 
troops on their territory plus an outlandish additional 50 
percent.
    This whole scheme reveals just how little the President 
seems to understand about how our alliances advance our own 
strategic interests. When we base troops in a NATO country, we 
are not just providing that nation with free security. Our 
presence strengthens the alliance's position in Europe and 
extends America's strategic reach. And our alliances, 
especially NATO, directly benefit the United States by 
enhancing our military power, global influence, economic might, 
and diplomatic leverage.
    That is not to say I expect our allies to not provide any 
financial contribution at all. NATO countries have already 
agreed to pay 2 percent of their GDP on defense by the year 
2024. And I agree with President Trump when he said that they 
should fulfill that obligation. We should hold them to that 
obligation.
    But the conversation should be more than only financial 
burden sharing. Instead, we need to see the big picture of how 
our allies contribute to our collective goals. But the 
President's constant denigration of our allies presents a real 
threat to our foreign policy and national security objectives 
and, frankly, it is just baffling. President Trump is much more 
critical of our European allies, societies that share our 
commitment to core values, than he is of brutal dictators such 
as North Korea's Kim Jong-un or Russia's Vladimir Putin, and 
that is why it is so important that we in Congress take a 
leadership role on this front.
    I am pleased that in this body, support for our European 
allies and partners continues to be bipartisan. You can see 
that in a resolution that the ranking member and I are 
introducing that would reaffirm the House's support for 
America's alliances and partnerships around the world. Simply 
put, NATO is one of our most precious geopolitical assets and 
should stay that way. It is important that we stand together to 
send this message because the NATO alliance is needed now as 
much as ever before.
    We are seeing a rise in authoritarianism, continued threats 
from international terrorism and extremism, and aggressive 
attempts by Putin to invade Russia's neighbors and attack 
democratic elections throughout the world. It is by working 
with our NATO allies, standing side by side that we can 
successfully face these challenges head on.
    So it is critical that we have a full understanding of the 
current state of the alliance. We need to explore the role that 
NATO plays in America's foreign policy and discuss ways we can 
improve the organization, including efforts to make sure our 
allies follow through on all their obligations.
    I am eager to hear from our witnesses about these issues, 
but first I will recognize our ranking member, Mr. McCaul of 
Texas, for his opening remarks.
    Mr. McCaul. Thank you, Mr. Chairman.
    The North Atlantic Treaty Organization or NATO was created 
on April the 4th, 1949. This was an historic moment. At that 
time, the international community was still recovering from the 
most devastating conflict the world has ever seen. Born out of 
the chaos of World War II, my father's war, NATO was formed to 
protect European democracies against Soviet totalitarianism and 
prevent a Third World war. Seventy years later, the greatest 
military alliance ever created has proven that the free peoples 
of the world are the strongest when we stand together.
    From that confrontation with communism during the cold war 
to the defeat of Milosevic in Kosovo to the battlefields of 
Afghanistan, American soldiers and those of our NATO allies 
have fought and bled together. In fact, the only time that 
Article 5, as the chairman said, has ever been invoked was 
after 9/11 terror attacks.
    This collective defense agreement and acknowledgment that 
an attack on one is an attack on all is a cornerstone of the 
alliance and we must keep it that way. NATO has enhanced our 
military capability, increased our intelligence collection, and 
created a bulwark against international terror. It is critical 
to our national security and solidifies our friendships with 
member States.
    NATO continues to grow as countries in Europe meet 
important objectives. And as I was pleased to see that North 
Macedonia will be joining the alliance as its newest member. 
However, friends must also be honest with each other. Some of 
our allies have not been living up to the decision at the Wales 
Summit in 2014 to spend 2 percent of their GDP on national 
defense.
    Thankfully, under pressure from the administration, member 
countries have begun to spend more. NATO's Secretary General 
recently announced that by the end of next year an additional 
$100 billion will be contributed by our European partners. This 
is bad news for Vladimir Putin, but good news for the future of 
NATO's common defense.
    And over the next 70 years we will be challenged again and 
again. We have already seen a resurgent Russia attack its 
neighbors from cyber attacks in Eastern Europe to military 
conflicts in Georgia and Ukraine. It is clear that Putin wants 
to reclaim the superpower status of the Soviet Union. We can 
meet our challenges if they are confronted with unity and 
strength. Division and weakness will only tear us apart.
    Each of today's witnesses have served our country well and 
I know all of you personally. You have developed an expertise 
on foreign policy and national security affairs. I look forward 
to having a thoughtful and bipartisan discussion and hearing on 
their thoughts on how to maintain a strong and effective NATO. 
And with that, Mr. Chairman, I yield back.
    Mr. Engel. Thank you, Mr. McCaul.
    It is now my pleasure to introduce our witnesses. Michele 
Flournoy is co-founder and managing partner of WestExec 
Advisors and a former co-founder and CEO of the Center for New 
American Security. She previously served as the under secretary 
of defense for policy and co-led on President Obama's 
transition team at the Department of Defense.
    Ambassador Douglas Lute is a senior fellow with the Project 
on Europe and the Transatlantic Relationship at the Belfer 
Center for Science and International Affairs at Harvard 
University. He was formerly the United States' permanent 
representative to the North Atlantic Council, NATO's standing 
political body. He also previously served as deputy director of 
operations for United States European Command.
    Derek Chollet is the executive vice president of the German 
Marshall Fund of the United States. He was formerly assistant 
secretary of defense for international security affairs where 
he managed U.S. defense policy toward Europe and NATO, the 
Middle East, Africa, and the Western Hemisphere. Previously, he 
was special assistant to the President and senior director for 
strategic planning on the National Security Council's staff.
    Finally, Ian Brzezinski is a resident senior fellow with 
Transatlantic Security Initiative in the Scowcroft Center for 
Strategy and Security at the Atlantic Council. He was 
previously the deputy assistant secretary of defense for Europe 
and NATO policy. He also served as the senior professional 
staff member on the Senate Committee on Foreign Relations--we 
will not hold that against you, Mr. Brzezinski--implementing 
legislative initiatives and strategic strategies concerning 
U.S. interests in Europe, Russia, the Caucasus, and Central 
Asia.
    We are grateful to all of your service and your time this 
morning. You can see it is a very prominent panel that we have. 
Our witnesses' testimony will be included in the record of this 
hearing, and I would like to now recognize our witnesses for 5 
minutes each.
    Let's start with Ms. Flournoy.

STATEMENT OF MICHELE FLOURNOY, CO-FOUNDER AND MANAGING PARTNER, 
                       WESTEXEC ADVISORS

    Ms. Flournoy. Chairman Engel, Ranking Member McCaul, 
distinguished members of the committee, thank you very much for 
the opportunity to testify this morning about the importance of 
NATO and our alliances more broadly for U.S. national security.
    At the end of World War II, the United States had a 
remarkable foresight to establish a set of alliances in Europe 
and Asia as a means of protecting and advancing U.S. interests 
and also as pillars of a new rules-based international order. 
These alliances have underwritten 70 years of unprecedented 
prosperity, economic growth, security, and stability. They are 
without precedent in history and they are of great strategic 
value to the United States and the American people.
    Our NATO alliance as well as our bilateral alliances in 
Asia provides the United States with enormous strategic 
advantages. Our allies are our most reliable partners in 
confronting a host of shared challenges from proliferation to 
climate change, challenges that no single nation no matter how 
powerful can address alone.
    Our allies tend to be our closest trading partners. Look at 
the U.S. and Europe with more than a trillion dollars in trade 
every year. Our allies contribute to U.S. national security as 
our closest military partners, going into harm's way shoulder 
to shoulder with American troops, providing essential basing 
and support to military operations overseas, enhancing the 
familiarity of U.S. forces with their overseas theaters of 
operation, and cementing military to military relationships 
that are the human foundation for interoperability and 
effectiveness in coalition operations. Perhaps most 
importantly, these allies help us underwrite deterrence, 
prevent conflict, and address persistent threats like 
terrorism.
    Our allies can also be incredibly powerful partners in 
advancing our shared values, our commitment to democracy and 
human rights. Our transatlantic alliance is particularly 
valuable. Over its 70-year history NATO has provided a number 
of strategic benefits to the U.S. that are, frankly, too often 
forgotten in today's political discourse. Thanks to NATO we 
were able to contain the Soviet Union, prevent the spread of 
communism, deter a potentially nuclear confrontation, and 
ultimately win the cold war.
    Thanks to NATO, when the Berlin Wall fell we were able to 
create a Europe whole, free, and at peace. Thanks to NATO, we 
were able to conduct military operations that helped end the 
war in Bosnia and enforce a negotiated peace. Thanks to NATO, 
America was not alone in fighting al-Qaida in Afghanistan and 
globally. NATO, as was noted, invoked Article 5 for the first 
time in its history on our behalf after 9/11.
    Our NATO allies sent and sustained a rotational force of 
some 40,000 troops in Afghanistan fighting alongside us. They 
took a lead in providing stability and security in the north 
and saved the U.S. an estimated $49 billion in the process. 
They have contributed 2.3 billion to the support of the Afghan 
National Army. They are still with us today with 17,000 troops 
in resolute support providing training and support to the 
Afghan forces now leading the fight. Most importantly, we 
should never forget that more than 1,000 non-U.S. NATO troops 
lost their lives in Afghanistan, making the ultimate sacrifice.
    Today, our NATO allies remain among our most critical 
partners in dealing with 21st century challenges. Many of our 
NATO allies are our closest partners fighting terrorism 
globally. Think France in the Maghreb or the U.K. in Iraq and 
Syria. In Iraq, NATO has provided 350 trainers, AWACS aircraft 
for surveillance, and so forth.
    The European allies have also been among our closest 
partners in combating nuclear proliferation. After Russia's 
illegal annexation of Crimea and the invasion of Eastern 
Ukraine, it was our European allies who stood up and helped us 
impose the harshest sanctions against Russia in history and 
they have borne the brunt of the cost. More than 90 percent of 
the costs of those sanctions have been borne by Europeans, 
including the loss of hundreds of thousands of export-related 
jobs across Europe.
    NATO has also stepped up to strengthen deterrence vis-a-vis 
Russia particularly in the Baltics, Poland, and the front line 
States with the enhanced former presence involving 4,500 NATO 
troops and initiatives to enhance NATO readiness. They have 
stepped up to prepare for cyber attacks, other shared missions 
like counter piracy, humanitarian relief, and so forth.
    So my point is, there are many other factors besides just 
measuring defense spending to assess that we have to weigh in 
assessing the value of these alliances. We should implore our 
NATO allies to spend more on defense, but that should not be 
the only metric of our burden sharing especially given their 
shared sacrifice. That would be disrespectful, shortsighted, 
and wrong. I think given our allies' track record of invaluable 
contributions, the President's persistent disparagement of NATO 
and our partners there, our allies there, constitutes foreign 
policy malpractice and undermines our U.S. interests. Most 
disturbingly, the continued bad-mouthing of our NATO allies has 
created uncertainty in the mind of our closest partners, has 
opened up a serious debate in Europe about whether the U.S. 
remains a credible partner and a reliable leader.
    So after 70 years of shared sacrifice and success, I think 
it is appalling that we are in this position today. We should 
be honoring and celebrating that 70 years of success. We must 
take stock of the many ways in which our allies have 
contributed to our security. Now is not a time to disparage or 
abandon or nickel-and-dime NATO. It is a time to double down on 
our shared, and make the shared investments that are necessary 
to deal with an era of strategic competition. Thank you.
    [The prepared statement of Ms. Flournoy follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Engel. Thank you, Ms. Flournoy.
    Mr. Chollet.

STATEMENT OF DEREK CHOLLET, EXECUTIVE VICE PRESIDENT AND SENIOR 
 ADVISOR FOR SECURITY AND DEFENSE POLICY, THE GERMAN MARSHALL 
                   FUND OF THE UNITED STATES

    Mr. Chollet. Chairman Engel, Ranking Member McCaul, members 
of the committee, I appreciate the opportunity to appear before 
you today. This year marks a pivotal moment for NATO 
commemorating landmark anniversaries in the alliance's history, 
yet also confronting fundamental questions about its future. 
For an alliance forged in the rubble of the Second World War, 
NATO stands today as the most successful security partnership 
in history.
    I believe a strong NATO remains essential to advancing U.S. 
national security interests. It is an indispensable force 
multiplier for American power. If NATO did not exist today we 
would be racing to invent it. Yet, at a time of significant 
turbulence at home and abroad, many are asking about whether 
the U.S. still believes in NATO. They watch our debates or read 
our Twitter feeds and wonder how committed the U.S. remains. 
That is why Congress is essential to affirming and bolstering 
U.S. leadership in NATO.
    Now taking stock of the alliance today, one could easily 
depict things only in dire terms, focusing on discord and 
disagreement. Yet, the alliance is also exhibiting renewed 
energy. This can be measured in at least four ways.
    First, in the area of territorial defense, where member 
States are stepping up deployments, adapting to evolving 
threats, and spending more on their militaries; second, in the 
alliance's commitment to some of its basic principles such as 
the open-door policy bringing new members into the 
organization; third, this renewed energy can be measured by 
public opinion where support for NATO remains very high 
throughout Europe and particularly in the United States; and 
fourth, it can be seen in NATO's enduring commitment to common 
security especially in places like Afghanistan.
    For these reasons, NATO continues to show that it is a 
unique asset to the United States. However, NATO faces no 
shortage of challenges. These include threats from rival 
powers, especially Russia's efforts to test, divide, and weaken 
the alliance as well as China's rising military threat which is 
getting greater attention among our European partners. These 
include such challenges as cyber threats and hybrid warfare, 
enduring challenges along NATO's southern flank where State 
failure, violent extremism, and refugee flows pose the primary 
threats.
    And finally there are internal tensions that undermine 
alliance unity. This last challenge is perhaps the most 
worrying. NATO faces a growing crisis within its ranks. NATO is 
about much more than armaments and military capabilities. It is 
an alliance rooted in common values. The preamble of the 1949 
Washington Treaty stipulates that the alliance was founded on 
the principles of democracy, individual liberty, and the rule 
of law. Yet, democratic backsliding and nationalist politics 
are on the rise in too many places. This makes it harder to 
maintain allied unity. It raises questions about common 
commitment to NATO's future. Across European capitals and here 
in Washington too many are wondering whether the U.S. would 
fulfill its commitment to collective defense.
    For this reason, Congress has an especially urgent and 
important role to play in maintaining U.S. leadership in NATO. 
Continued support for funding of the U.S. military and 
diplomatic efforts in Europe will remain essential. So will the 
continued willingness of so many Members of Congress to travel 
to NATO headquarters and other European capitals to show 
support for the alliance and press for its continued reforms. 
And your legislative efforts such as the recent passage of the 
bipartisan NATO Support Act are indispensable.
    We must rekindle the spirit that helped energize U.S. 
leadership in NATO in the first place and also recall that 
sustaining this leadership over decades has never been easy. We 
would be wise to remember history's lessons. Allow me to 
conclude on one of them. Exactly 68 years ago, a similar debate 
about NATO gripped Washington and specifically the U.S. 
Congress. Back then, the many major political figures doubted 
the wisdom of NATO claiming that deploying American troops to 
Europe was not in the Nation's best interests. It fell to 
General Dwight Eisenhower a year before he became President to 
come out of retirement and galvanize American support to send 
troops to Europe. In February 1951, Eisenhower came here to 
Capitol Hill to make his case. Speaking before both houses of 
Congress he passionately argued for what he called the 
enlightened self-interest of American leadership in NATO. 
Congress embraced Ike's call to action.
    Mr. Chairman, Ranking Member McCaul, members of the 
committee, at a moment when we hear echoes of the same doubts 
about NATO's value to U.S. national interests, we would be well 
served to recall Eisenhower's wisdom. And as we approach NATO's 
70th anniversary this spring, we must again look to Congress to 
embrace this mission as it did seven decades ago. Thank you and 
I look forward to your questions.
    [The prepared statement of Mr. Chollet follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Engel. Thank you, Mr. Chollet.
    Mr. Lute.

STATEMENT OF DOUGLAS LUTE, SENIOR FELLOW, PROJECT ON EUROPE AND 
 THE TRANSATLANTIC RELATIONSHIP, BELFER CENTER FOR SCIENCE AND 
                     INTERNATIONAL AFFAIRS

    Mr. Lute. Mr. Chairman, members of the committee, thank you 
for bringing us together today to discuss the NATO alliance, a 
cornerstone of American national security policy for the last 
70 years but a cornerstone that I think we all too often take 
for granted.
    The topic of today's session is NATO at 70: An 
Indispensable Alliance. Coincidentally, just last month, 
Harvard University's Belfer Center published a report that I 
co-authored with Ambassador Nicholas Burns and the title of our 
report was ``NATO at 70: An Alliance in Crisis.'' So as NATO 
approaches its 70th anniversary in just a few days both 
descriptions strike me as accurate. NATO is both indispensable 
and in crisis.
    Our report outlines ten major challenges facing the 
alliance. These challenges are diverse, complex, and happening 
simultaneously. That is why we conclude that the alliance is in 
crisis. The report identifies four challenges from within the 
alliance, and others have already mentioned some of these: 
reviving American leadership of the alliance; restoring 
European defense strength that is defense spending; upholding 
NATO's democratic values; and streamlining NATO decisionmaking. 
Another four challenges come from beyond NATO's borders: 
containing Putin's Russia, ending the Afghan war, refocusing 
NATO's partnerships, and maintaining an open door to future 
members. Finally, the last two of the ten challenges are 
challenges that loom on the horizon; winning the technology 
battle in the digital age and competing with China.
    I would like to highlight just a couple points out of this 
report, and request that the full report be entered into the 
record. First, NATO's single greatest challenge today is, for 
the first time in NATO's history, the absence of strong, 
committed U.S. Presidential leadership. Every previous 
President since 1949, both Democrats and Republicans, has 
understood the value of NATO. Most fundamentally, allies today 
are unsure of this President's commitment to the Article 5 
collective defense commitment. This shakes the core of the 
alliance. Here, the U.S. Congress can play a role to reassure 
allies and check and balance the President, as the House did in 
January this year by approving the NATO Support Act. More 
specifically, on a bipartisan basis Congress should reaffirm 
regularly the U.S. commitment to NATO, should continue to fund 
the European defense initiative, and should pass legislation 
requiring congressional approval should the President attempt 
to alter our treaty commitments or to leave the alliance 
altogether. Approval of the NATO treaty in 1949 required two-
thirds majority in the Senate. The same should be required to 
leave the alliance.
    Second, Europeans must contribute more to their defense. 
Mr. Chairman, you mentioned this in your opening comments. I 
was the U.S. Ambassador to NATO in 2014 when allies committed 
to the 2-percent pledge. It is an appropriate and necessary 
metric. Today, only seven allies reach that level of defense 
spending. This administration is right to hold allies to the 
pledge.
    At the same time, however, 2 percent was never intended to 
be the only meaningful measure of an ally's contribution, so 
NATO should broaden its metrics. Most important, spending on 
capabilities to counter hybrid tactics including cyber attacks, 
disinformation campaigns, and interference in our democratic 
processes should be taken into account as these may represent 
NATO's greatest vulnerability.
    Third, a challenge on the horizon, NATO needs to pay more 
attention to China's increasing influence in Europe, and I will 
leave that for now. But as it, in my view, in the coming 
decades NATO's importance will only grow because of the U.S. 
competition with China.
    And, finally, Mr. Chairman, I want to point out a false 
narrative that ignores the values and erodes the cohesion of 
NATO. This false narrative claims that NATO is an anachronism, 
outdated and obsolete, that our allies are ripping us off 
taking advantage of our generosity. This is simply not true. 
The truth is that U.S. created NATO and has maintained the 
alliance for 70 years because NATO is in America's vital 
national security interest. America benefits economically, 
politically, and militarily from the alliance.
    NATO and our other treaty allies are the single greatest 
geostrategic advantage we hold over any peer competitor. Russia 
and China have nothing to compare. In short, NATO is 
indispensable. Thank you.
    [The prepared statement of Mr. Lute follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Engel. Thank you, Mr. Lute.
    Mr. Brzezinski.

     STATEMENT OF IAN BRZEZINSKI, RESIDENT SENIOR FELLOW, 
      TRANSATLANTIC SECURITY INITIATIVE, ATLANTIC COUNCIL

    Mr. Brzezinski. Chairman Engel, Ranking Member McCaul, 
distinguished members of the committee, as we approach NATO's 
70th anniversary thank you for conducting this hearing and 
allowing me to participate in this stock-taking of the 
alliance.
    NATO is an invaluable alliance. The transatlantic security 
architecture it provides has transformed former adversaries 
into allies and deterred outside aggression; European allies 
that are secure and at peace are inherently better able to work 
with the United States addressing challenges beyond Europe. 
NATO has been a powerful force multiplier for the United 
States. Time and time again, European, Canadian, and U.S. 
military personnel have served and sacrificed shoulder to 
shoulder on battlefields in Iraq, Afghanistan, and elsewhere 
around the world.
    The alliance provides the United States with the ability to 
leverage unmatched political, economic, and military power. 
NATO's actions benefit from the political legitimacy unique to 
this community of democracies. Its economic power, a combined 
total of some $40 trillion in GDP, dwarfs that of any rival. No 
other military alliance can feel the force as capable as NATO.
    These assets only become more important in today's 
increasingly challenging security environment. That environment 
features, one, the return of great power competition featuring 
Russia's revanchist ambitions and China's growing 
assertiveness; second, a disturbing erosion of the rules-based 
order that has been the foundation of peace, freedom, and 
prosperity around the globe; third, a growing collision between 
liberal democracy and authoritarian nationalism.
    Another significant dynamic is what some call the fourth 
industrial revolution. It features the advent of hypersonic 
weapons, artificial intelligence, quantum computing, and other 
technologies. These capabilities portend to radically redefine 
the requirements of military stability and security. These are 
reasons why NATO has only become more important.
    But as we look forward, NATO's agenda must include the 
following five priorities: First, the alliance must accelerate 
its efforts to increase its preparedness for high-intensity 
conflict. After the cold war, NATO's force posture shifted 
toward peacekeeping and counterinsurgency. These were the 
demands generated by operations in the Balkans, Afghanistan, 
and elsewhere. Today, Russia's military aggressions and 
sustained military buildup have reanimated the need to prepare 
for high-intensity warfare, the likes of which we have not had 
to face since the collapse of the Soviet Union. This is a 
matter of real concern.
    It is notable--it is deeply concerning that the commander 
of the United States European Command last week testified that 
he is not yet, quote, ``comfortable with the deterrent posture 
we have in Europe''. He warned that, quote, ``a theater not 
sufficiently set for full spectrum contingency operations poses 
increased risk for our ability to compete, deter aggression, 
and prevail in conflict, if necessary'', end quote.
    This reality underscores a second NATO priority. Canada and 
our European allies must invest more to increase their military 
capability and readiness for these kinds of contingencies. 
Their investments must address key NATO shortfalls including 
air and missile defense, intelligence surveillance and 
reconnaissance and long-range fires, among others. Time is long 
overdue for these allies to carry their share of the security 
burden.
    Third, NATO must reinforce, must further reinforce its 
flanks in North Central Europe, the Black Sea Region, and the 
Arctic. These are foci of Russia's military buildup, 
provocations, and aggression. In North Central Europe the 
challenge is acute. The alliance has four Enhanced Forward 
Presence battalions stationed in Poland, Lithuania, Latvia, and 
Estonia. They are positioned against divisions of Russian 
ground forces backed by sophisticated aircraft, air defense, 
helicopters, ships, and missiles.
    Fourth, the alliance must more substantially embrace and 
support the membership aspirations of the Ukraine and Georgia. 
NATO enlargement is one of the great success stories of post-
cold war Europe. It expanded the zone of peace and stability in 
that region and strengthened the alliance's military 
capability. But the alliance needs to provide Ukraine and 
Georgia a clear path to membership, recognizing it will take 
them time to meet the alliance's political and military 
requirements.
    There is a clear lesson from Moscow's invasions of Ukraine 
and Georgia. NATO's hesitancy regarding membership aspirations 
of these two nations has only animated Vladimir Putin's sense 
of opportunity to reassert Moscow's control over what has been 
allowed to become a destabilizing gray zone in Europe's 
strategic landscape.
    Finally, the alliance needs to actively consider the role 
it will play in the West's relationship with China. I agree 
with Doug. While China is not an immediate threat, military 
threat to Europe, its actions against the rule-based 
international order affects Europe as it does America. NATO can 
play a constructive, if not significant role in the West's 
strategy to shaping a more cooperative relationship with 
Beijing.
    As the United States confronts the challenges of the 21st 
century, there is no instrument more essential, indeed, more 
indispensable than NATO. The political influence, economic 
power, and military might available through this community of 
democracies cannot be sustained in the absence of a robust U.S. 
military commitment to the alliance. That is the price of 
leadership and it is one whose returns have been consistently 
advantageous to the United States. Thank you.
    [The prepared statement of Mr. Brzezinski follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Engel. Thank you, Mr. Brzezinski.
    Let me ask this question and let me have, starting with Ms. 
Flournoy, let me have each of you answer this.
    NATO has been called the most successful political-military 
alliance in history. Yet, as we have all mentioned, some 
critics have claimed that NATO is obsolete or that the U.S. 
shares too large of a burden within the alliance. The 
architects of the alliance--Truman, Acheson, Marshall, and 
Eisenhower--would be incredulous to learn that their creation, 
NATO and the lasting Atlantic partnership, is now in question.
    Let me ask each of you, in your previous positions, would 
you have been able to execute our foreign policy and national 
security objectives without the support and contributions from 
our allies in NATO?
    Ms. Flournoy, let's start with you.
    Ms. Flournoy. No. The short answer is no. NATO was a 
critical partner in enabling us to surge forces in Afghanistan. 
They were a critical partner in bolstering deterrence in Europe 
in the face of a more assertive and aggressive Russia. And NATO 
members individually have been critical partners in other 
operations like counterterrorism the world over.
    So NATO, in my experience, remained absolutely critical. It 
is the first place we would turn to for partners to accomplish 
shared objectives.
    Mr. Engel. Thank you.
    Mr. Chollet.
    Mr. Chollet. Mr. Chairman, I completely agree with that. In 
my capacity at the Pentagon serving for the Secretary of 
Defense, three times a year we would travel to NATO 
headquarters in Brussels to meet with his minister of defense 
counterparts. Secretary of State has their own meetings with 
their counterparts. And this became a way for us to coordinate, 
to plan, and to talk about crisis response and also issues over 
the horizon.
    NATO was absolutely our partner of first resort and much of 
what we have been able to accomplish in Europe and elsewhere is 
unimaginable without having such a strong, enduring alliance.
    Mr. Engel. Mr. Lute.
    Mr. Lute. Mr. Chairman, I can only agree. I would argue 
further that as Ms. Flournoy mentioned in her opening comments, 
if we did not have NATO today when we confronted the kind of 
challenges that the panel has outlined, we would actually be 
racing to discover NATO and to invent NATO. So it is, in fact, 
indispensable.
    Mr. Engel. Thank you.
    Mr. Brzezinski.
    Mr. Brzezinski. Thank you, Mr. Chairman. I concur with my 
colleagues. We would not have been able to execute what we have 
done in Afghanistan and Iraq and the Balkans without our NATO 
allies. Sitting in the Pentagon, I saw firsthand how absolutely 
invaluable it is to have other countries whose militaries are 
not only fully interoperable, but have deep personal 
relationships among their commanders, among their NCOs. That is 
the reason why when we have a contingency that requires 
multinational support we turn to our NATO allies first. NATO is 
indispensable to U.S. security and too often to U.S. military 
operations beyond our border.
    Mr. Engel. Thank you. Mr. Brzezinski, let me just stay with 
you and expand on something that you mentioned. I could not 
agree with you more when you spoke about NATO enlargement. I 
think NATO, frankly, missed the boat back in 2008 when they did 
not expand to include Ukraine and Georgia. I think that gave 
Putin the idea that he could do whatever he wanted and that we 
would not stand up to him, including all his things in Crimea 
[and all his other belligerent actions.]
    So I do not know if you wanted to expand on that. I just 
wanted to say that I agree with your comments.
    Mr. Brzezinski. Thank you, sir. You know, when we look at 
the Black Sea Region, that is a zone of increasing 
confrontation with Russia. I do agree with you that if we had 
provided Ukraine and Georgia a more robust commitment to their 
transatlantic aspirations it is less likely that Putin would 
have made his move against Georgia and it is even less likely 
they would have made its move against Ukraine.
    Putin thrives on weakness and he exploits hesitancy and 
uncertainty. And unfortunately the West's posture toward these 
two countries has created a de facto gray zone in European 
security and that just whets the appetite of someone like 
Putin. He sees an opportunity or senses there is a lack of 
commitment to support another country along its border in the 
former Soviet space. He sees that as an opportunity to 
reanimate the hegemony that Moscow exerted during the cold war. 
That is what he is about and unfortunately that is the position 
that we have put these countries in.
    And it is sad, because these countries seek NATO membership 
and more often than not they have actually sent troops to 
support our operations in the Balkans and in Afghanistan. I 
remember the dramatic footage of a Georgian platoon fighting in 
Afghanistan defending our embassy and doing a really good job 
of it. They need more support than we are providing them.
    Mr. Engel. Thank you.
    Ms. Flournoy, let me ask you this. What would be the 
consequences of pulling our troops home or reducing the size of 
the U.S. presence in Europe? How would it impact our ability to 
project power globally and could an ad hoc coalition take the 
place of our NATO basing and alliance network? If not, why not?
    Ms. Flournoy. As we saw during the surge in Afghanistan and 
our combat mission there, our basing in Europe was absolutely 
critical as a hub for our rotational forces going in and out of 
that conflict. In addition, the fact that we had been in Europe 
working with our allies in exercises and training and 
constantly working on interoperability, we experienced the 
benefits of that when we had to deploy together whether it was 
in the Balkans or Afghanistan or elsewhere. So that basing has 
been a critical hub.
    Now that there is a returned threat to Europe itself with 
Russia's behavior that those bases become absolutely critical 
as a both a symbol of the U.S. commitment and resolve to defend 
Europe and our interests there, but also, a caution, a blinking 
yellow light to Vladimir Putin to say, if you come into NATO, 
cross NATO's borders, you are immediately declaring war not 
only with Europe but with the United States.
    So I think it is very important to maintain and 
strengthen--there are things I would do to strengthen that 
infrastructure in Europe, but I think it is very important to 
maintain it as a starting point.
    Mr. Engel. Thank you.
    A few of you have mentioned China as a country that we need 
to be looking at very carefully for its aggressiveness and what 
it might do in the future. I am wondering if any of you would, 
Mr. Chollet or Mr. Lute, would you want to comment on that?
    Mr. Chollet. Well, I can take a first crack. I think China 
is something that NATO members need to begin to engage more 
seriously. I think there is more talk in Europe about looking 
at China as a security threat. Of course there has been a lot 
of news recently about disputes between the United States and 
some European partners on China's investment particularly in 
the technology space within Europe, but we are seeing China 
invest in infrastructure in Europe, ports, critical 
technologies, engaging more in the high north, and China 
engaging much more with Russia.
    Last year, there was a very large exercise in the Far East 
called Vostok-18 that involved hundreds of thousands of Russian 
troops, thousands of Chinese troops, and this is something that 
got a lot of attention by our military commanders in Europe and 
in Asia. It is evidence of greater cooperation between Russia 
and China, cooperation that our intelligence community has 
testified publicly before Congress as something they are 
watching.
    So although there are many aspects to the China challenge 
and the security piece is just one, I think this is something 
that I see NATO engaging much more deeply in, in the coming 
five to 10 years and I think that there is a willingness in 
Europe to do so.
    Mr. Lute. Mr. Chairman, I am not so concerned about China's 
military impact on Europe, but I am concerned about, as Derek 
Chollet mentioned, China's increasing commercial influence. It 
is buying its way into transportation infrastructure, IT 
communications infrastructure and so forth. We have seen early 
signs that those commercial investments are leading to 
political influence. They expect a political return on their 
commercial investment.
    And even more I think strategically important over the next 
two to three decades, it is clear that the U.S.-Chinese 
competition will be at the forefront of world politics. And we 
should ask ourselves as Americans, do we wish to compete with 
China alone or would we favor an arrangement where we have 29 
like-minded allies on our side as we enter into this 
geostrategic competition that is going to define the rest of 
our lives? I would clearly prefer to go in with a NATO team.
    Mr. Engel. Thank you.
    I am going to go to Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    First of all, let me say unequivocally, I believe the value 
of NATO is absolute or as near absolute as it gets to mitigate 
war, to deter, and when there is a problem to act decisively as 
a team to thwart any potential adversary. I do not think it is 
at risk. I think there is a lot of hyperbole about NATO's 
continuance being thrown about. I do not think it is at risk at 
all. I have been in Congress for 39 years. There is bipartisan 
support for it. There is White House support for it. So I think 
there is a lot of hyperbole about that issue.
    I led a delegation to the OSCE Parliamentary Assembly. We 
had a bilateral with the Germans with members of the Bundestag 
as well as other people in their defense establishment there 
last July, and I came away profoundly disturbed by their 
unwillingness and inability to meet that 2 percent GDP target. 
As a matter of fact, it is at 1.24 percent now and their excuse 
is--and I would appreciate perhaps Mr. Lute or others who might 
want to speak to this where--well, their population just will 
not go along with that kind of defense increase.
    It is OK for the U.S. to do it. I am glad we do. But to 
step up and say they cannot do this politically I thought was 
as weak as it gets, if you could speak to that.
    Second, to Michele Flournoy, during the 2012 Presidential 
election you appeared in a political commercial in reaction to 
Mitt Romney's statement ``that Russia was our No. 1 
geopolitical foe.'' You stated in the commercial that it is 
really a curious statement given that the cold war has been 
over for some time, indicating that Russia was not the threat 
that Mr. Romney had suggested and that he was stuck in the 
past.
    In your testimony before us today, however, you term Russia 
``revisionist,'' and cite Moscow's continued aggression in the 
region. I was in Tbilisi a week after they invaded South 
Ossetia. Anyone who had any thoughts that Putin was somehow 
matriculating from dictatorship to democratic leader--I will 
sell you the Brooklyn Bridge if you believe that.
    And they might have even gone further if there was not at 
least some strong statements coming out of the administration 
at that point, but I was wondering if you could tell us which 
of those statements should the committee believe today.
    Third, let me ask with regards to INSTEX, many of us are 
very concerned about the roundabout efforts that are being made 
by many, including Germany, France, and the U.K., to undermine 
our ability to sanction, whether it be Global Magnitsky or 
whether it be our efforts against Tehran. When you find some 
other way of circumventing what the U.S. is doing with often 
very strong support of the Congress, I think it undermines our 
ability to promote Iranian regime sanctions that in my opinion 
are very justified as well as again the Global Magnitsky Act.
    Mr. Lute, if you could maybe start on that first, what 
about Germany? I mean 1.24 percent is weak and it is, in my 
opinion, indefensible.
    Mr. Lute. Congressman, I can only agree with you. Germany 
was present at the Wales Summit. Germany agreed as all allies 
did on the 2-percent pledge and Germany is underperforming at 
1.24 percent. It is the largest, strongest economy in the 
alliance next to ours. It is a political ally that aspires to 
European and maybe even global leadership, and leadership comes 
with a price.
    And this is simply a matter of German political leaders 
coming together and forming a coalition as their system 
requires and building political support for this. Political 
support does not fall from trees. It has to be built as the 
Congress obviously knows. So I can only agree with you. There 
is no excuse.
    Mr. Smith. Thank you.
    Ms. Flournoy. Yes, Congressman. So I did make that 
statement and it was at a time when we were actually having 
some success in cooperation with Russia. This is before Putin 
sort of increased his more aggressive behavior. We were 
negotiating New START arms control. We were policing up nuclear 
materials, and cleaning out proliferation risks. We had Russian 
agreement to allow us to transit Russian territory and their 
near abroad----
    Mr. Smith. I understand. But----
    Ms. Flournoy. So I am just saying it was a moment in time. 
I think now looking back, knowing what we know now and how 
Putin has behaved and where Russia has gone with its 
aggression, I think that I would revise that statement or I 
would not have made that statement.
    Mr. Smith. I appreciate it.
    Ms. Flournoy. I would have thought that now, you know, 
Romney had a certain degree of foresight that I think was not 
apparent at the time.
    Mr. Smith. OK. And Romney was not alone in that. Many of us 
strongly objected to those kinds----
    Ms. Flournoy. Right, but I think we can all agree that 
Russia is----
    Mr. Smith. Matter of fact, I am glad Secretary Albright 
said it as well----
    Ms. Flournoy [continuing]. Very much a threat today.
    Mr. Smith [continuing]. That we underestimated Russia.
    And that last question, if anybody can speak to it, 
circumventing our sanctions regimes with and working actively 
against us and there are members of NATO doing it with INSTEX.
    Mr. Chollet. Well, it--yes, on the Russia or on Iran and 
the JCPOA, obviously that has not been a NATO issue although 
NATO members are very much party to this dispute. And of course 
this issue has been incredibly divisive between the U.S. and 
Europe and will remain divisive. Europe is indeed trying to 
find a way to maintain the integrity of the JCPOA with this new 
mechanism. I have my doubts, frankly, whether this new 
mechanism is going to get anywhere. They just launched it, 
whether it will prove successful or not.
    Nevertheless, whether that exists or not there will still 
remain a profound disagreement with our U.S. and European 
partners on the JCPOA and how to handle the threat from Iran's 
nuclear program. That is not a subject--the JCPOA specifically 
is not a subject that NATO talks much about within the councils 
of Brussels. However, the threat from Iran is something that 
NATO talks about around the table in Brussels and thinks quite 
a bit about from a military planning perspective.
    Mr. Engel. Thank you.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I want to thank all of 
the witnesses.
    You know, NATO has undoubtedly been one of the most 
successful alliances in history promoting peace, security, 
democracy since its inception. And at the signing of the 
original Washington treaty 70 years ago, President Truman 
remarked that NATO would, and I quote, ``would create a shield 
against aggression and fear of aggression, a bulwark which will 
permit us to get on with the real business of achieving a 
fuller and happier life for all of our citizens.'' To me those 
words are truer now than ever before. And prior to this 
administration, it would have been unimaginable to question the 
value of our NATO alliance and pass resolutions prohibiting the 
President from pulling out of this strategic partnership of 
which he has threatened to do and yet that is exactly where we 
are here, why, where we are today.
    And when I was recently in attendance at the Munich 
Security Conference, I was deeply concerned that at that time 
not just a few weeks ago, that the President went on to Twitter 
to threaten the release of 800 captured ISIS fighters on the 
streets of Europe. Just think about that for a second. Today, 
we are here in agreement on the importance of NATO, a point 
that I think our President disregards.
    And the only thing I will say also in regards to Germany, I 
understand that they need to step up. But they are not talking 
about building a wall, they are letting millions of refugees in 
and spending money on that. Not building a wall to separate 
themselves, but accepting many individuals and trying to make 
sure that there is better integration into the European--and 
they do not get credit for that.
    And just think about that cost to the German people and 
what the Chancellor is subjecting herself to by just doing 
that. And those things should be taken into consideration at 
all times, I think, and we do not talk about that enough where 
we are building a wall and separating people and dividing 
people and not supporting our NATO.
    So let me ask Ms. Flournoy that how has President Trump's 
questioning of the value of our NATO allies affected our 
ability to effectively push back against Russia's aggression?
    And I agree with you because I too was fooled. I started, 
that is the reason why I was a supporter of PNTR right before 
Putin came back. I thought that we were moving in a post-cold 
war and Putin came back and we are where we are. But how 
effectively did we push back against Russia's aggression, and 
address other security challenges that is now confronted in 
Europe.
    Ms. Flournoy. So for all the strength of our military to 
military cooperation with our allies, I think the statements 
coming from the President questioning not only our allies' 
contributions but the U.S. commitment to NATO and the value of 
the alliance, I think that has frankly played right into 
Vladimir Putin's hands. If you look at Russia's objectives, 
Putin is trying to reassert Russia as a great power. He is 
trying to recreate a sphere of influence.
    And he is going to try to undermine democracy as a model of 
government. There is nothing that makes him happier than to see 
division inside the alliance, to try to so division and weaken 
the transatlantic relationship, and so this is playing right 
into Putin's hands.
    He is--this is far more effective than the disinformation 
campaigns that he has been launching that the meddling in our 
elections and European elections has resulted in. So I think 
we--I am very worried that at the strategic level the lack of 
U.S. clear commitment and resolve and consistency and 
leadership in the alliance is frankly strengthening Putin's 
hand and undermining our own.
    Mr. Meeks. Thank you.
    Mr. Chollet, let me ask you, because NATO has an open-door 
policy and we now look that maybe North Macedonia, a new ally 
and part of the NATO. Now what would you say to those who argue 
against NATO's enlargement, and are there any real concerns 
that newer, smaller members of NATO could drag us into a 
conflict, and can you elaborate on why enlargement has 
benefited NATO?
    Mr. Chollet. Well, as my fellow panelists have said, NATO 
enlargement, in my view, is one of the great success stories of 
the NATO alliance. It was just yesterday that we celebrated the 
20th anniversary of NATO's first round of post-cold war 
enlargement letting in Poland, Hungary, and the Czech Republic.
    Something that the United States--it is important to 
remember a process U.S. drove and brought these countries into 
the alliance working with our partners. I think, first, having 
more capable partners serves the U.S. interest and the process 
of getting into NATO just does not happen overnight. This is a 
long, rigorous process that requires many, many political and 
military reforms from member States.
    So I think it is very, very important that to achieve our 
goals of having more capable partners and ensuring that we have 
a Europe that is whole, free, and at peace, that we keep this 
door open. That is why I think we should celebrate the fact 
that North Macedonia appears on the cusp of entering the 
alliance later this year.
    And I want to concur with my colleague, Mr. Brzezinski, 
that it is very important for the alliance to clarify a pathway 
for it, for those allies that has already said 1 day we will be 
in the alliance and that is Georgia and Ukraine, and I think it 
is time to try to take the next step in our articulating more 
concretely how that will happen.
    Mr. Engel. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    You know, Russia has been in violation of the INF Treaty 
for many years. Putin has indicated his intent to build new and 
more sophisticated missiles to threaten our allies. I agreed 
with the President's decision to withdraw from the INF Treaty 
and I commend our NATO allies for supporting that decision 
unanimously.
    Mr. Brzezinski and I guess Mr. Chollet, what can NATO do 
now to prevent this and deter this Russia missile development 
program?
    Mr. Brzezinski. Thank you, sir. You know, the Russians have 
been in violation of INF Treaty for some at least 10 years. And 
when you have one party of a treaty not abiding by it, its 
utility diminishes and maybe even becomes counterproductive if 
you are not willing to directly address that digression, that 
violation.
    Mr. McCaul. OK.
    Mr. Brzezinski. I think the administration made the smart 
move in pulling out or announcing its intent to withdraw from 
the INF Treaty. I think it has wisely signaled to the Russians 
that if they are ready and demonstrate that they will destroy 
the existing inventory of intermediate range missiles they have 
built--and I think it is about a brigade's worth--that we will 
go back. I think that is the right thing to do.
    The goal is to now figure out how we can avoid another 
destabilizing arms race, so to speak, an arms race with two 
sides building nuclear-capable, intermediate range missiles 
ground launched. That is what the INF pulled off the table, so 
to speak.
    Looking forward, I think the following things: One, it 
would be useful for--if the Russians will not take up the 
administration's offer, we might consider proposing to the 
Russians an agreement in which we would agree that we will not 
deploy nuclear-capable, ground launch, intermediate range 
missiles. We could complement that maybe with limits on the 
number of missiles each side can have, and of course this would 
have to include also very, very robust inspection regimes. We 
could consider joint renunciation of not--renunciation of 
deploying nuclear INF range missiles.
    Our response also has to figure out what would we do as the 
Russians move forward with these deployments, and there are 
conventional responses we can take into account, the deployment 
of more robust air and missile defense systems.
    If there is one thing that it lacking in the 
administration's response, I think it is as follows: They have 
not publicly stated what are the implications of this 
violation. They have just said basically they are in violation 
and so therefore we are going to get out of it.
    To me, but it is clear this can be potentially extremely 
destabilizing and the administration should be articulating in 
how is it destabilizing, what are the military implications of 
this. I am wondering if they tasked the alliance or NATO's 
military commander to do an assessment of what happens if the 
Russians deploy a hundred, 200, 500 of these systems. What are 
the implications for the alliance's posture? What should be the 
response? Such an assessment and such a public articulation of 
such an assessment would do a lot to help garner a more public 
and international support for the administration's position.
    Mr. McCaul. In the remaining time I have I want the other 
three to comment. Turkey has become a precarious ally in many 
ways. Their rejection of the Patriot missiles and now 
willingness to buy the Russian S-400 missile system is a 
challenge for NATO members, and the NATO Supreme Allied 
Commander said that if they went ahead with this purchase that 
the United States should not follow through with selling them 
F-35s.
    Could Michele and Mr. Chollet and Mr. Lute, could you 
comment on that?
    Mr. Chollet. Congressman, I completely agree with your 
assessment of the concern of Turkey's purchase of the Russian 
air defense system. This has been something that going back to 
the Obama Administration has been made clear to Turkish 
counterparts the mistake this would be both in terms of what we 
believe is their cooperation within NATO and the fact that 
there would be real consequences beyond NATO, as you mentioned 
the F-35, for example, and so one would hope that the Turks 
change their minds on this.
    I am doubtful, having had conversations with some Turkish 
officials recently that they are going to do so. They feel 
quite defiant about it. I think this would be a mistake. It 
would weaken alliance unity. This is one of those issues that 
is an irritant in alliance debates.
    And Turkey is a front line partner. I mean Turkey has been, 
we should not forget, been living with a hot war on its border 
for quite some time. And so there many ways NATO has come to 
Turkey's support as it has dealt with the ramifications of the 
Syria crisis. But----
    Mr. McCaul. My time is--if I could just get a quick 
response from Ms. Flournoy and Mr. Lute. And I apologize.
    Ms. Flournoy. I was not fully supportive of General 
Scaparrotti's testimony in terms of it from a technical and, 
you know, intelligence risk perspective. It is impossible if 
they go ahead with the deployment of this for hundreds and 
integrate that into their systems, it will mean, it will create 
very real constraints on what we are able to do with them in 
terms of any kind of advanced defense cooperation or future, 
provision of future systems including the F-35.
    And so I think this is a real problem, and what Turkey 
needs to understand is that they are making not just tactical 
choices, systems choices, but strategic choices and this will 
limit their ability to cooperate effectively within the 
alliance.
    Mr. McCaul. Mr. Lute.
    Mr. Lute. I agree this is a tactical bad choice on behalf 
of Turkey. But the broader, more strategic issue is Turkey's 
significant slippage from the democratic values of the 
alliance. There is no ally among the 29 who has slipped further 
and faster from the founding core values of the alliance and 
has moved toward authoritarianism. So that is the big strategic 
issue.
    Mr. McCaul. Thank you.
    Mr. Engel. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I just want to get back to the earlier remarks about China. 
You know, 2 weeks ago I was in Munich and in Brussels talking 
to political and security leaders as well as NATO leaders, and 
came away with the strong feeling that in the longer term that 
China could be our greatest challenge right now. If we were 
going to look back 25 years from now if things stay the same, 
that is where I think we might be showing we have the greatest 
concern.
    So I would just like to go further with this. There is so 
much Chinese activity investments. They just purchased a 
robotics company in Germany. They are working with Hungary with 
proposed rail lines through Serbia. Bulgaria, they are doing 
investments in ports, all with strings attached. And we are 
hearing in North Africa some of the buyers' remorse from some 
of the countries that have been dealing with China, but in 
Europe this is a real threat.
    So what can our NATO members do to insulate members from 
this? What can the U.S. do? I know I am involved in 
alternatives in terms of energy investment, alternatives in 
Europe to provide more options and to help our exporting now 
that we are in there, but what kind of things can we do to 
insulate ourselves and to deal with what I think is the 
greatest long-range threat that we have through China and these 
investments?
    Ms. Flournoy. If I may, sir, I think it is an excellent 
question. I do think the strategic competition with China will 
be kind of the pacing issue for our national security going 
forward. Europe is sort of a back door to get in to get Western 
technology for China. If they cannot--if they are thwarted in 
their intellectual property theft from us, they will try to get 
it through our European allies.
    They are making infrastructure investments. The case of the 
port in Italy is just the most recent example. Not because of 
some economic driver, but because they are trying to get 
political influence, they are trying to gain leverage. And 
ultimately they are also, with their companies like Huawei and 
others, trying to put in networks an infrastructure that could 
be used by the State for intelligence and espionage purposes in 
the future if it came to that. So we have to be very clear-
eyed. I think we want to intensify our discussions with each of 
our NATO partners in Europe and the EU. We want to encourage 
them to put in place CFIUS-like regulation, meaning they need 
to be very careful to review foreign investment in their 
countries from a national security perspective and be very 
clear-eyed. We need to be doing better in sharing intelligence 
about, what we see China doing.
    But to Doug's point earlier, Ambassador Lute's point, we 
are missing an opportunity. The best way for the U.S. to 
compete with China is, first of all, to invest at home in our 
domestic drivers of competence, but also to band together with 
our European allies and our Asian allies. Together we are 60 
percent of the world's GDP. If we were taking China on not in a 
bilateral tariff tit-for-tat kind of dispute, but banding 
together with the EU, Japan, Korea, all of our allies in Asia, 
we would have so much more leverage to force China into to 
address some of the unfair practices that it has had on trade 
over the years.
    Mr. Keating. I could not agree with you more. I think we 
are talking just the opposite approach. Tariffs are divisive 
and if we ever move on the automobile tariffs it will be more 
divisive. It is a lose-lose proposition.
    But we share the same values with our European Union allies 
and it is those values that are in competition right now with 
China and why not deal from a position of strength and move 
forward for free trade agreements there and then really be in a 
strength position to deal with China? So I could not agree 
more.
    Just one quick question, you know, the elections are coming 
in Europe and we are seeing, you know, I think democracies more 
a threat with autocratic leaders and autocratic. How is that 
backslide a concern and what can we do with the NATO countries 
and our European allies to try and help in that regard?
    Mr. Chollet. Congressman, I can take a crack at that. It is 
a big concern. The democratic backsliding we are seeing in many 
countries in the alliance is something that is becoming 
increasingly divisive within the alliance and making it harder 
to maintain alliance unity. There is not just disputes between 
the U.S. and European partners, there are disputes within 
Europe over the direction of politics on the continent.
    That is why I think it is important to remember NATO's 
core, which is the values. It is a military alliance, but it is 
about much, much more than capabilities. And I think that is 
why it is so important for NATO to remain strong, for the U.S. 
to uphold those values and remain committed to its leadership 
in the alliance. A lot of these issues have nothing to do with 
NATO, but NATO as that core of the transatlantic partnership 
will be an absolutely indispensable tool in helping us address 
some of the democratic backsliding in the European Union.
    Mr. Keating. Well, thank you. I would just say it has 
everything to do with it too, if you look at it from that 
perspective. I yield back.
    Mr. Engel. Thank you.
    Mr. Wilson.
    Mr. Wilson. And thank you very much, Chairman Engel and 
Republican leader McCaul. What extraordinary time to have 
recognition of the 70th anniversary of NATO and I want to thank 
each of you for being here. And as I think of the 70th 
anniversary of NATO, we now have the broadest spread of freedom 
and democracy than in the history of the world. Particularly 
with the former Warsaw Pact members now members of NATO, how 
exciting this is and the success of NATO needs to be 
recognized.
    Mr. Brzezinski, Secretary General Stoltenberg has actually 
praised the President for his efforts to have all of the 
members of NATO increase their participation financially. What 
is your view about the financial contributions by our NATO 
allies?
    Mr. Brzezinski. I think those contributions are still 
short. They are making improvement. Secretary General 
Stoltenberg likes to emphasize that since 2016 we have had a 
$41 billion increase in their defense spending and it is on 
track to be $100 billion by 2020. That is good and it should be 
recognized.
    I think it is actually eight countries now that are going 
to be this year at the 2-percent mark and ten have pledged to 
meet that by 2024, which is progress, but there are about to be 
30 members in the alliance, so we are just over 50 percent of 
the alliance living up to the 2-percent pledge. It is urgent, 
because challenges that we face today are growing increasingly 
ominous. I mean the risks posed by Russia's military buildup in 
North Central Europe in the Black Sea Region require more 
robust investment.
    We were talking about Germany. It is appalling the German 
spending levels particularly in the light of the readiness of 
their forces. I am not convinced they really have the 
capability to even generate two brigades in 30 days to 
reinforce NATO's Eastern frontier and they are in the backyard, 
so to speak.
    So yes, there is progress being made. I think the 
administration can be commended for prodding that process in 
sometimes undiplomatic way, sometimes even a counterproductive 
way, but the progress is happening but a lot more needs to be 
done. Fifty percent meeting 2 percent is not sufficient. That 
is not the instate we see. We need a hundred percent commitment 
to 2 percent and we need to kind of, think more broadly about 
how we measure the outputs of that 2 percent.
    I would like to see a return to inspections of committed 
allied forces. That is, during the cold war I think it was 
SHAPE, Supreme Headquarters Allied Powers Europe, would do 
inspections of the forces that NATO members committed to 
alliance operations or alliance contingency plans. Those 
inspections ought to be reinstated.
    They could be conducted by SHAPE or Allied Command 
Transformation, and they ought to be reported to the ministers. 
And I think there ought to be a public dimension of that 
reporting because that is a good way to increase the pressure 
on governments and also to get public's confidence that their 
money is being well spent.
    Mr. Wilson. Thank you. Another, to me, extraordinary 
achievement has been NATO forces being placed in the Baltic 
republics-Estonia, Latvia, Lithuania-the presence of American 
troops in Poland. For each of you, how significant is this as a 
deterrent, and in particular in Poland--I had the opportunity 
to meet with President Duda in New York last summer and it was 
so exciting to hear him explain how he would like to have 
actually a permanent American military presence that they would 
pay for, they would provide, and the relationship that we have 
with Poland has just never been better.
    But Secretary Flournoy, everyone, what is the significance 
of having these troops as a deterrent, peace through strength?
    Ms. Flournoy. I think having NATO troops, including U.S. 
troops, in the Baltics is essential to signal to Vladimir Putin 
that if he comes across the border he is not just attacking 
Estonia or Latvia or Lithuania, he is taking on the United 
States and the full force of NATO.
    I do think there are things we can do to strengthen our 
presence along the front line States including pre-positioning 
more heavy equipment, including readying more bases to be able 
to receive forces if it came to that in a crisis. I think the 
question of whether any additional presence in Poland should be 
permanent versus rotational deserves further study. But I 
really applaud Congress' support and this committee's support 
for the European Reassurance Initiative and the continued 
funding that DoD is providing.
    Mr. Engel. Thank you very much.
    Mr. Wilson. Thank you.
    Mr. Engel. Mr. Sherman.
    Mr. Sherman. We are arguing that they should spend 2 
percent on their national defense. We are also trying to argue 
to the American people that if they hit 2 percent they are 
doing enough. So we have the foreign policy establishment is 
arguing in both directions. Tell the American people settle for 
what you get and tell the NATO countries to spend more. Two 
percent is a benchmark that needs to be compared with what 
percent are we spending, and what is the commonly used figure 
that we use to talk to the Europeans about what percent of our 
GDP we are spending? Do we typically say something like 3 
percent or three and a half percent?
    Which of you is most familiar with what number we use? I 
see Mr. Chollet--oh, Mr. Lute.
    Mr. Lute. So we have consensus here. We typically cite 3.5 
percent.
    Mr. Sherman. Right. And the fact is that is our effort to 
lie to the American people because we have a two-angle here. We 
do not spend--we spend much closer to five and a half percent. 
Now how can you lie to the American people to tell them what 
Europe is doing is adequate? Well, what you do is you exclude 
veterans benefits as if the pension costs--you know, I am an 
old CPA. If you had a company that in not listing the costs of 
product excluded its pension costs, they would go to jail. That 
is how big of a violation it is of accounting principles.
    So you exclude veterans. You exclude the Coast Guard. You 
exclude the CIA. And that helps with one part which is trying 
to tell the American people Europe is doing enough, but it 
undercuts our efforts to get Europe to do more because they 
say, well, you know, if we hit 2 percent, you guys are three 
and a half percent, we are in the ballpark. Why is it in 
arguing with Europe that we decide that the Coast Guard does 
not count, the CIA does not count, and veterans benefits does 
not count?
    Mr. Lute. So I think I can address that. So NATO actually 
has rules about what counts and what does not count, so 
typically the shorthand.
    Mr. Sherman. And why have we agreed to rules that all lie, 
that massively understate what any reasonable accountant would 
say we are spending?
    Mr. Lute. So I am not sure, Congressman, why we agreed to 
that.
    Mr. Sherman. OK.
    Mr. Lute. But the standard has been for decades that 
basically ministry of defense----
    Mr. Sherman. I understand. Europe's--there is Article 5 and 
there is Article 5. No one in the world knows what the U.S. 
response would be to an attack on an Eastern European country. 
We would clearly do something. There is an image that as long 
as we are legally in NATO we will respond as we did in World 
War II and/or with the full force of our nuclear weapons.
    Is there any discussion in Europe that goes along the lines 
of, hey, if the American people think that we are only doing 2 
percent or we are doing less than 2 percent, we are on the 
front lines and that is all we did that maybe the U.S. response 
would not be any greater than NATO's response that when America 
was attacked by the Taliban and al-Qaida.
    That is to say, the U.S. might send a few hundred troops, a 
few thousand troops, but would not reinstitute the draft, 
endanger American cities. Is there any discussion in Europe 
that Article 5 compliance could be anything between a few 
hundred troops on the one hand and massive nuclear war on the 
other, or do they just assume that they get a World War II-
level response?
    Mr. Lute. So, Congressman, NATO actually conducts war games 
often with our secretary of defense participating and they go 
through scenarios.
    Mr. Sherman. But it will ultimately be a political 
decision. That you do war games in 2019 that does not mean that 
the United States in 2029 will allow the--use tactical nuclear 
weapons against a Russian army.
    Mr. Lute. Right. But these exercises reflect your point, 
which is that there is a lot of ambiguity in Article 5 and 
there is a range of potential national response.
    Mr. Sherman. Is there any discussion in Europe that the 
ultimate political decision within that range to their defense 
and, more importantly for them, the image to Russia of what 
that would be is dependent upon the American people's view as 
to whether they are carrying their own weight.
    Mr. Brzezinski. Sure, if I could share my perspective. What 
I think Europeans who are in decisionmaking capacities do is 
they look at what our footprint is in Europe, how much we spend 
on Europe, and what kind of operations we do in Europe. So when 
they look at our footprint, they have seen actually a return of 
U.S. forces to Europe, and not only just a return of U.S. 
forces, but a forward deployment of those forces in North 
Central Europe.
    Mr. Sherman. I understand that the elites of Europe look at 
what the establishment in the United States does which is 
engage in those war games. But ultimately the decision in 2029 
or 2039, or God hope this never happens, will not be made in 
Washington. It will be made in Peoria, in Wichita, and the 
American people will decide.
    And I know that had the decision been made in Washington by 
the establishment we would have responded robustly to Assad's 
use of chemical weapons. And then we heard from constituents 
when President Obama asked for congressional support and I got 
four calls saying go bomb Assad and 500 calls on the other 
side.
    So are the Europeans--and I realize I have gone over time. 
But it seems like the Europeans are focusing on whether they 
are meeting Washington standards and not whether they are 
meeting the American people's standard. And I will yield back.
    Mr. Engel. Thank you.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. And I thank the panel 
for being here.
    I do not personally believe that the American people think 
that there is a threat to the NATO alliance. And I think they 
certainly appreciate the value to the free world and that it is 
better to stem the tide of totalitarianism, communism, 
socialism, and violence on those borders as opposed to having 
come to our shores.
    So I kind of reject and I completely reject the straw man 
argument that this President is flirting with leaving NATO 
legitimately even in the face of the fact that only eight of 
the NATO countries as you, Secretary Brzezinski, have pointed 
out have met the requirement and while 21 are falling well 
short, including Germany. And the American taxpayer, they 
understand that as well. They do not mind making the 
investment, but they do not want to be used and abused to 
defend Europe wholly and completely from here.
    But let me ask a couple of questions. Secretary General 
Stoltenberg just last month at the Munich Security Conference 
said, ``I am saying that President Trump's message has been 
very clear and that his message is having an impact on defense 
spending and this is important because we need fair burden-
sharing in the NATO alliance.''
    Secretary Flournoy, is he wrong? Was he wrong to say that?
    Ms. Flournoy. No. I think that President Trump's pressure 
and Secretary Mattis' pressure along with their predecessors 
Secretary Gates, Secretary Panetta, others, we have been at 
imploring the allies to do more.
    Mr. Perry. Right.
    Ms. Flournoy. And that is correct. I think the objection is 
to using the 2-percent as the sole criteria for evaluating 
allied contributions----
    Mr. Perry. But nothing has worked in the past, right? Let 
me move on here. This is a statement we have heard recently.
    Ms. Flournoy. I think the Ukraine and Crimea has had 
something to do with the increased spending as well.
    Mr. Perry. And it should. But these are some other 
statements. This is a statement we have heard recently. ``If we 
have got collective defense it means that everybody has got to 
chip in. And I have had some concerns about a diminished level 
of defense spending among our partners in NATO, not all but 
many.'' And then another statement, ``One of the things that I 
think medium and long term we will have to examine is whether 
everybody is chipping in.''
    Secretary Brzezinski, do you know who said those two 
things?
    Mr. Brzezinski. No, sir.
    Mr. Perry. That was President Obama that said that.
    And so my question for you is, to many people he made 
disparaging comments about our NATO allies going as far as 
calling them free-riders. And if that is the case, why is it 
that President Obama, who seemed to have some of the very 
similar rhetoric toward our allies, was not successful in 
getting them to try and meet their obligation but also was not 
criticized for it? Why do you suppose that is?
    Mr. Brzezinski. I think it is politics.
    Mr. Perry. Sounds fair to me. I mean, but we are talking 
about international and national security and it does not seem 
to be the place for politics. I mean, Secretary Gates under 
President Obama said that in 2011 in Brussels that NATO had a 
dim, if not dismal, future unless more member nations scaled up 
their participation in alliance activities.
    Let me ask you this, Secretary Flournoy. In your testimony 
you say that using the 2-percent GDP goal as the only measure 
of burden sharing ignores other critical contributions and, 
most importantly and unforgivably, their shared sacrifice. 
Moving on, this is disrespectful, shortsighted, and wrong.
    Now your former boss, Secretary Gates, criticized NATO 
members for not meeting their commitments. Would you say that 
he was disrespectful, shortsighted, and wrong as well?
    Ms. Flournoy. No, because he was not using the 2-percent 
metric as the only metric of NATO contribution. I helped write 
the speech that you are referring to from Secretary Gates. We 
have bipartisan support from Bush, Obama, and Trump trying to 
get the allies to do more and that is a correct policy. But it 
should not be the only metric by which we judge their 
contributions to our security.
    My point was they have fought and died alongside us. We 
should never overlook that in the way that we address our 
allies in terms of their contribution.
    Mr. Perry. So then let me just ask you this, rhetorically, 
if that is the case. And, OK, I will have an open mind about 
it. Will our NATO partners and allies be upset and be critical 
of the United States if we reduce our contribution lower than 2 
percent saying, well, look, we do a whole lot of other things 
as well and we do not want to only be measured by this 2 
percent because we do a whole lot of other things as well that 
are not included in the 2-percent. Is that going to be fair?
    Ms. Flournoy. Again, no. Again I think the 2-percent metric 
is important and valid and should be met. It is just not the 
only metric that we should use to browbeat our advocate.
    Mr. Perry. But it cannot be a one-way street. It cannot be 
a one-way street. The American taxpayer realizes----
    Ms. Flournoy. Now that is true, absolutely. It should not 
be a one-way street.
    Mr. Perry [continuing]. Respects the investment.
    Ms. Flournoy. We are in violent agreement.
    Mr. Perry. But we demand our NATO partners and allies meet 
their obligations as well.
    Ms. Flournoy. Yes, but we should do it without calling into 
question their ability to rely on us as the leader of the 
alliance----
    Mr. Perry. We are not calling into question----
    Ms. Flournoy [continuing]. And our commitment to work with 
them.
    Mr. Perry [continuing]. Their ability to rely on us, but I 
would say that past administrations had demanded the same thing 
as this President and gotten zero results. And with that I 
yield back.
    Mr. Engel. Thank you.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    Listening to my colleagues' line of questioning and I think 
in a bipartisan way we would like our NATO allies to step up 
and carry more of the burden. I think the difference between 
prior administrations and the current administration, I do not 
think we disagree with President Trump asking the question and 
pushing for greater contribution. I do think many of us are 
uncomfortable and disagree with the premise that we should pull 
out of NATO and even that rhetoric, I think, is very dangerous 
and sends the wrong signal to our friends and allies.
    We can modernize what this alliance looks like. We share 
values. And, you know, if our allies across the world are 
listening as well as our adversaries, I think this body, when 
we passed the NATO Support Act 357 to 22 in a broad bipartisan 
way saying that we would not be pulling out of NATO, is 
speaking loudly and that is what Congress should be doing. I 
urge my colleagues in the Senate to take this act up and send 
it to the President and I would urge the President to sign this 
because that is the message of this body.
    You know, in that light as we start to think about 
Congress' role in supporting our alliances and sending the 
message, you know, many Members of Congress will be here longer 
than 4 years and from one administration to the next. And I 
think NATO has served us incredibly well in the post-World War 
II environment. We are not suggesting that we do not need to 
modernize those alliances and look at it, but these are 
institutions that have served us well.
    You know, maybe starting with Ms. Flournoy and just going 
across, what would you like to see Congress' oversight role be 
and how can we best provide that?
    Ms. Flournoy. I would welcome, as Mr. Chollet recommended, 
a strong congressional vote, both houses, in support of NATO 
and the value of NATO to U.S. national security and the 
continued U.S. commitment to the alliance. Beyond that in terms 
of your oversight role, I think it is important we get beyond 
the--you know, yes, the 2-percent metric is important. I 
acknowledge that and fully support it. I spent a lot of time in 
my previous capacity pushing our allies on this issue.
    But I think it is much more important to ask how is that 
money being spent? How is NATO really investing to be prepared 
for a different set of future challenges than the ones that 
have defined our operational focus over the last two decades? 
That is the key question. It is a question of the type of 
readiness. It is the type of posture and positioning. It is the 
technology investment. It is all of those things and so getting 
beyond the just the 2-percent to say, how are we actually 
spending money and is that going to bolster deterrence and 
prevent conflict in the future.
    Mr. Bera. Mr. Chollet.
    Mr. Chollet. Congressman, three ways that Congress' role is 
indispensable, first, on the oversight obviously ensuring that 
the United States maintains robust funding for its security and 
diplomatic efforts in Europe is something that we are going to 
look to Congress to ensure. I took note that in the 
administration's budget request this week there is a $600 
million cut in the European defense initiative and that is 
something I know your colleagues on the Armed Services 
Committee will take a close look at what is behind that.
    No. 2, efforts that as Ambassador Lute has mentioned for 
Congress to not just show its support, but help protect NATO in 
some ways and U.S. leadership in NATO by ensuring that there is 
a very high bar that the executives should get over if there is 
a desire to pull out or diminish in some way the U.S. role in 
NATO.
    And then third, as has been mentioned by many members of 
this committee, just your personal engagement in these issues, 
traveling to NATO headquarters, traveling to Europe not just to 
listen and talk about your support, but also to press NATO on 
the important reforms that we all agree in a bipartisan fashion 
it needs whether that is on defense spending or defense 
modernization, I think that is a very critical role that you 
all can play.
    Mr. Lute. Congressman, I would only cite the 50-some 
Members of the Congress both on the Senate and the House who 
went, as some members of this committee did, to Munich just 
within the last month. That is the largest congressional 
delegation in the 55-year history of the Munich Security 
Conference. That sends a very important message. So Congress to 
parliamentary engagement is really important and I would not--
aside from that I would echo everything my colleagues have 
said.
    Mr. Brzezinski. Sir, I will just quickly reiterate what my 
colleagues have said. I would start by saying thank you for the 
resolutions that this body has passed in real time to 
demonstrate congressional support for the alliance. That was 
incredibly important last summer. I would second Derek's call, 
whatever can be done to kind of ensure this continued funding 
for the European Deterrence Initiative, it is important in 
light of the threat scenario as we face in Europe.
    And in terms of oversight, I would recommend that you look 
into on a regular basis what are the readiness levels not just 
for the United States but for our allies. Do a deep dive on how 
ready are German, French, U.K., Polish battalions, brigades, 
aircraft, how sustainable and how deployable they are. Then I 
would also do a deep dive into what kind of contributions are 
our allies making to military operations?
    And you will get a mixed picture from such oversight, but 
it will be helpful because it will help prompt our allies in 
the right direction.
    Mr. Bera. Great, thank you. And I will yield back.
    Mr. Engel. Thank you.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you all for 
being here today. I appreciate it.
    We all know that NATO is an important institution. And it 
is not just--I think it is important to remember that it is not 
just a benefit to Europe. I think we get as much of a benefit 
out of NATO as Europe gets out of it, out of our involvement. 
We all know the invocation of Article 5 after 9/11, the 
importance of that, NATO's role, including some folks that are 
not in NATO when you think of the Nation of Georgia, for 
instance, helping us in Afghanistan is important to keep in 
mind.
    But I think we all understand the importance of NATO, but I 
do not think there is anything wrong with us or an 
administration pointing out weaknesses in an alliance. In fact, 
I think that is essential. And sometimes in our fervor to 
reaffirm NATO we skip over the reality that--I remember hearing 
about one European country that I will not mention that in the 
Balkans was unable to muster any combat power for that conflict 
because they realized the vast majority of their defense budget 
was actually just being spent on paying salaries, which makes 
it just a jobs program and not a military at that point.
    The importance of our job in that so reaffirming that is 
important, but I think you also have to give the administration 
some flexibility in terms of calling NATO out on their weakness 
like that. Congress can play an important role, but I think 
Congress can overplay our hand sometimes too in consistently 
saying that you know, we are going to affirm NATO no matter 
what, regardless of their percent of GDP they are spending, as 
an example.
    This committee later today is going to hear a bill to 
prohibit military action or authorization or action in 
Venezuela, which out of nowhere I found out we are doing, and, 
you know, where in the world? How do you--you take away the 
power of an administration to use military as even a carrot in 
terms of a diplomatic negotiation. And the first thing this 
committee did was already de-authorize the administration's 
involvement in Yemen.
    So I think empowering an administration is extremely 
important, but we all realize the importance of NATO today.
    So Ukraine I want to talk specifically about. They continue 
to face, as we know, significant challenges from Russia, from 
Russian meddling and aggression as Vladimir Putin seeks to 
rebuild the former Soviet Union. And I think the best way to 
push back against Russia is to give the Ukrainians what they 
need to defend their sovereignty such as anti-tank Javelin 
missile systems that we delivered last year and any further 
support that they need in that. Back in November, Russia 
violated Ukraine's sovereignty yet again when it seized three 
Ukrainian vessels along with its 24 sailors as they passed 
through neutral waters in the Kerch Strait.
    Mr. Brzezinski, General Scaparrotti, the current Supreme 
Allied Commander of NATO, recently testified that the 
administration is looking to deliver more lethal weapons to 
Ukraine. Do you believe this will help to defer actions, 
further conflicts between Russia and Ukrainian forces?
    Mr. Brzezinski. Absolutely. I think while our support has 
improved to Ukraine in providing lethal assistance, we need to 
do more so that Ukraine is better able to defend itself. Right 
now it remains very vulnerable. I would add to the list that we 
have--and we are doing things that are useful like helping the 
Ukrainians train their forces and such, but the only lethal 
assistance we have provided have been the Javelins.
    We should complement that with more capable ISR systems 
they can use. We may even want to do our own ISR flights over 
Ukraine just to keep the Russians on notice that we are 
watching. We should give them air defense assets and we should 
also give them anti-ship missiles like the harpoon, so that we 
do not have events occurring like we saw in the Sea of Azov 
again.
    Mr. Kinzinger. Thank you. You know, and I think the 
important thing to note is, well, I do not always agree with 
the administration's words or lack of words on Russia and I 
call that out every time I can, but words versus actions are 
really significant. I think this administration's actions 
against Russia and actions Ukraine are far different than what 
we have seen in the past.
    I am not a point back to the past kind of guy, but when you 
look at the prior assistance to the Ukrainian military it was 
basically blankets. That really does not do a lot in terms of 
pursuing allowing Ukraine to defend its territory. And there 
are reports that Germany and France declined the United States' 
request to exercise freedom of navigation drills through the 
Kerch Strait last year. While both countries were willing to do 
a single maneuver, they were unwilling to navigate those waters 
out of fear of provocation.
    Mr. Brzezinski, how can we help to entice our NATO allies 
that we so strongly believe in to join us in showing Vladimir 
Putin that we will not accept his illegal activity in the 
Crimean Peninsula?
    Mr. Brzezinski. I think in that case you always find allies 
that will be in disagreement with you and so you have to move 
forward without them sometimes. That is why I think it was very 
important for the administration to move forward by providing 
lethal weapons, the Javelins, to Ukraine and to Georgia. If we 
are going to lead our allies we actually have to lead by doing.
    And so the recommendations I outlined for you would be 
actions that I would take that would benefit the Ukrainians, it 
would help deter the Russians, and would also, I think, help 
lead some of our European allies to recognize our actions are 
sound rather than unwise.
    Mr. Kinzinger. I think Vladimir Putin is a smart guy, but I 
do not think he is eager to cross red lines. I just think we 
need to paint those red lines brighter with our allies. So 
thank you, and I yield back.
    Mr. Engel. Thank you very much.
    Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair. Since we are at a Foreign 
Affairs hearing I just thought it might be appropriate to 
announce that today is day 26 of our national emergency. I note 
for the record that the President played golf in the middle of 
our national emergency.
    But I want to talk about a real emergency right now which 
is the destabilization of NATO by Donald J. Trump and his 
enablers. And we know based on various news articles and public 
reports that in 2018 Donald Trump talked about withdrawing from 
NATO.
    So Ms. Flournoy, let me ask you. If the U.S. were to 
withdraw from NATO would that help U.S. national security?
    Ms. Flournoy. No. I believe it would be catastrophic.
    Mr. Lieu. Would it help Russia?
    Ms. Flournoy. Yes, as I have said, I think any weakening of 
the transatlantic alliance it plays into Vladimir Putin's hand, 
weakens deterrence, and strengthens Russia's ability to meddle 
in our affairs and to advance their objectives.
    Mr. Lieu. Thank you.
    Donald Trump also questioned Article 5 of NATO which is the 
core of NATO's alliance. If the United States were to not abide 
by Article 5 would that help U.S. national security? Any of you 
can answer that.
    Mr. Chollet. It would be devastating.
    Mr. Lieu. Would it help Russia?
    Mr. Chollet. Absolutely.
    Mr. Lieu. All right. I also want to just quote from the 
national security strategy of the Trump administration. Quote, 
``experience suggests that the willingness of rivals to abandon 
or forego aggression depends on their perception of U.S. 
strength and the vitality of our alliances'', end quote. 
Another quote, ``we will redouble our commitment to establish 
alliances''. And then a third quote, ``the NATO alliance of 
free and sovereign States is one of our greater advantages over 
our competitors and the United States remains committed to 
Article 5 of the Washington treaty''. I hope the President 
reads his own national security strategy.
    So, Ms. Flournoy, you had mentioned about this 2 percent 
metric and that it might not make a lot of sense, so I agree 
that clearly our NATO allies ought to do more. But one reason 
the United States does more that we have a higher percentage of 
military spending on GDP is because we are a global superpower 
that responds to threats all over the world, not just Europe 
and Russia. Is that not right?
    Ms. Flournoy. Right. I do not think the 2-percent is an 
appropriate standard for the U.S. because we have global 
responsibilities that other European nations do not.
    Mr. Lieu. Right. So, in fact, we have bases in Japan and 
Korea in a way that Belgium does not, right?
    Ms. Flournoy. Correct.
    Mr. Lieu. Now the metric itself also does not make a lot of 
sense, because for example Germany could say, hey, we are going 
to increase our defense spending by giving higher pensions to 
our military officers. That does not somehow help reduce U.S. 
defense costs, correct?
    Ms. Flournoy. That is correct. It is also why NATO has said 
a certain portion of the money needs to be spent on actual 
capability development and modernization, not just personnel.
    Mr. Lieu. Thank you. And it seems like there is also, at 
least the way the President talks about it that somehow all 
these countries should be super grateful that the United States 
has some military forces in their countries. I just believe 
that it is really mutually beneficial to both the U.S. and 
these other countries.
    So, in fact, in one of the NATO countries, Turkey for 
example, it is true, is not it, that we launch airstrikes from 
Incirlik Air Base to go after ISIS targets in Syria?
    Ms. Flournoy. Yes, that is true.
    Mr. Lieu. And these NATO countries, having our forces there 
allows us to project force in a way that we otherwise could 
not; is not that right?
    Ms. Flournoy. Yes. The forward basing is very much in 
service of U.S. interests in addition to benefiting NATO.
    Mr. Lieu. One of my colleagues asked, well, why did not the 
media also sort of talk about this when the Obama 
Administration made similar statements about NATO? Well, let me 
just suggest Presidents Obama and Bush never talked about 
withdrawing from NATO. They did not disparage Article 5 of 
NATO. They did not beat up on our allies the way that Donald J. 
Trump has.
    I previously served on active duty in the United States 
military. I believe our military is one of the greatest forces 
in the world. However, we are only stronger when we have our 
allies working with us and I think Donald Trump is hurting our 
national security with his sort of bizarre view of NATO. And it 
also seems to me that he does not quite understand how the 
funding works with NATO, because whether or not France decides 
to increase its military spending does not mean that somehow 
U.S. defense spending through appropriations committees makes 
any difference at all. And with that I yield back.
    Mr. Engel. Thank you very much.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, for hosting this 
hearing and thank you to our witnesses for their time.
    As a former United States Ambassador having served in 
Western Europe, I understand just how central the NATO alliance 
is to safeguarding peace and prosperity and security in Europe 
and around the world.
    General Lute, I understand that inadequate and 
unstandardized transportation infrastructure in Europe could 
make it difficult to move troops and equipment across the 
continent curtailing NATO readiness. At the same time, China is 
seeking to invest billions of euros in infrastructure projects 
in Eastern Europe as part of its Belt and Road Initiative that 
we have all heard about.
    How is NATO incorporating China's growing infrastructure 
footprint into its plan to correct the mobility problem, I will 
say, in Eastern Europe?
    Mr. Lute. So it is responding insufficiently. In my opening 
comments I made the point that I think NATO needs to pay more 
attention to these Chinese investments.
    Mrs. Wagner. Right.
    Mr. Lute. Particularly in transportation and communications 
infrastructure, because with those commercial investments they 
expect a return in terms of political influence. And at the 
same time, the Chinese investments do not necessarily help the 
NATO mobility problem because they are not taking place in the 
areas we need. We need investment in transportation 
infrastructure. So we have problems today moving troops from 
the depth of NATO to the front lines.
    Mrs. Wagner. Correct.
    Mr. Lute. That is the transportation challenge we need to 
take on.
    Mrs. Wagner. And what are we doing in this and what is the 
U.S. bringing forward? I will ask Mr. Brzezinski.
    Mr. Brzezinski. I would like to raise one important 
initiative that merits U.S. support and that is the Three Seas 
Initiative. It refers to a Central European initiative to 
accelerate the development of cross-border infrastructure, the 
three seas being the Baltic Sea, the Adriatic Sea, and the 
Black Sea. This initiative has received rhetorical support from 
the administration. It is all about roadways. It is all about 
highways. It is all about railroads, energy pipelines, and 
such.
    And it is interesting to me the point you made about the 
Chinese. Both the Chinese and the Russians are trying to pull 
the Central Europeans away, in part, through gaining control 
over infrastructure.
    Mrs. Wagner. Right.
    Mr. Brzezinski. The Chinese announced $17 billion 
commitment to the upcoming Helsinki-Tallinn Tunnel. We need to 
get in that game. And we ought to support the Three Seas 
Initiative because it would have direct implications for 
military mobility because these roads and these highways would 
enable the alliance to move more directly to its Eastern 
frontiers. We ought to think about how we can financially 
incentivize Western capital to invest in the Three Seas 
projects.
    Mrs. Wagner. I appreciate that and thank you for that 
testimony and for that input.
    Ms. Flournoy, Russia has increasingly focused on waging 
hybrid rather than conventional warfare to undermine the West 
without incurring decisive countermeasures. We have seen this 
in Russia's cyber attacks on Estonia and other NATO members and 
in its creation of frozen conflict zones in Moldova, Ukraine, 
and Georgia, I believe, too. How should Russia's reliance on 
hybrid warfare change the way we think about collective 
defense?
    Ms. Flournoy. I think this is--you are right to highlight 
this because it is one of the areas where NATO is currently 
weakest and needs to get much stronger both member States and 
as an alliance. I think one step in the right direction is some 
of the cyber infrastructure NATO has put in place with a new 
Centres of Excellence and incident response capability, a smart 
defense initiative on cyber capacity building, and so forth.
    So the alliance is starting to take the kinds of steps we 
need to see, but that more needs to be done and it needs to be 
done more urgently.
    Mrs. Wagner. And to that point, is our recently enhanced 
forward-deployed presence in Poland and the Baltics improving 
NATO's ability to deter hybrid warfare, would you say?
    Ms. Flournoy. Yes. I do think that presence is a very 
important sign of commitment. I think a lot of the capacity 
building that we do with the Baltic States to make them look 
like indigestible porcupines to the Russian bear, I mean those 
kinds of----
    Mrs. Wagner. Indigestible porcupine. That is exactly the 
right term.
    Ms. Flournoy. Yes. I think that is very, very important. 
But I would like to see our posture in Europe continue to 
evolve with more emphasis on these infrastructure and 
transportation issues, more pre-positioning of heavy equipment 
and so forth, to really look at what would it take to deter 
Russia in an actual crisis.
    Mrs. Wagner. I thank you. I am out of time. I have 
additional questions that I am going to submit for the record. 
I appreciate the chairman, thank you, and all of your 
testimony.
    Mr. Engel. Thank you, Mrs. Wagner.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman, and I thank all the 
witnesses for coming today and for your testimony.
    I wanted to ask you a question to begin, Ambassador Lute, 
about withdrawal from the INF Treaty. I think President Trump's 
withdrawal from the Intermediate-Range Nuclear Forces Treaty 
represents a huge mistake for both America's security and for 
global peace. I do not think we should accept or be quiet about 
Russia noncompliance. I think we should redouble our push for 
full implementation of this and other treaties to keep Russia 
moving in the right direction on arms control.
    This move on the other hand takes us backward. To make 
matters worse, the official withdrawal date is August 2d and 
the Trump administration still has not laid out a diplomatic 
plan for how the U.S. together with allies will pressure Russia 
to come back into compliance. So my question is whether there 
is any viable path forward either to save the treaty or to 
better ensure that the U.S. and Europe are in lockstep in 
sustaining arms control with Russia. In other words, what is 
next here?
    Mr. Lute. Well, Congressman, I think the good news here is 
that the administration deliberately went to the NATO alliance 
and secured consensus at 29 for condemning the Russian 
violation, and apparently the allies are in support of the 
administration's move to move away from the treaty. I think 
that the 6-month period between this announcement and August 
when we actually withdraw should feature every diplomatic 
opportunity, every diplomatic effort to try to cause Russia to 
come back into compliance so that in fact we can preserve the 
INF Treaty. I say this because the INF Treaty itself is a very 
stabilizing influence in Europe. That is why we have an INF 
Treaty.
    Mr. Levin. Right.
    Mr. Lute. But also because just beyond next August is the 
renewal of the New START agreement and I am concerned that if 
we take one cornerstone out of the arms control structure that 
you begin to erode trust and confidence in the whole structure. 
So this is not just about INF. I think it could have a carry-on 
effect----
    Mr. Levin. So how do you prevent an unraveling like that?
    Mr. Lute. Well, I think, first of all, you preserve, you 
make every effort to preserve the treaty, hold Russia 
accountable, and then make sure you do so in alliance with the 
other 29 members of NATO. I would, frankly, have not left the 
treaty. I think our position is stronger and continues to focus 
on Russia, the violator of the treaty, if we stayed into the 
treaty. By the way we have apparently no intent to deploy INF-
capable systems ourselves, so we left the treaty----
    Mr. Levin. Then why walk? It does not make any sense to me.
    Mr. Lute. That is my position as well.
    Mr. Levin. OK, thank you. Let me ask you about another 
matter. In your testimony you say that so-called hybrid tactics 
like cyber attacks, disinformation campaigns, and interference 
in our democratic process pose the greatest threats to NATO. 
Would you talk a bit more about why you feel that these sorts 
of threats pose perhaps even more of a danger than a military 
threat, say?
    Mr. Lute. Because I think the red lines established for 
nuclear aggression or conventional force aggression are quite 
clear and bright and I think Putin understands that. I think he 
would prefer to play in the cloudy, ambiguous arena of hybrid 
warfare where he complicates attribution of impacts, he uses 
cyber and these other tools. So it is in that part of the 
deterrence spectrum from nuclear, conventional to hybrid, where 
we need to actually spend the most, pay the most attention.
    And candidly, most of the capabilities in the hybrid arena 
do not count today against the 2-percent pledge. So there is a 
disconnect here between what we are requiring allies to do, how 
much they spend, and what they actually spend it on.
    Mr. Levin. And I guess the question for today's hearing 
particularly is, do you feel like NATO helps our European 
partners, and for that matter us, to combat these kind of 
threats, you know, these hybrid threats?
    Mr. Lute. So the U.S. has been a leader in highlighting 
cybersecurity in particular to the NATO alliance, but I think 
there is much more we can do. I mean, and another significant 
hybrid tactic is interference in our electoral processes. And 
now with our 2016 experience here in the United States we have 
some experience in what it is like to face that kind of 
interference.
    So there is more we can do in this hybrid arena and that 
should be of real focus for us. That is where we are 
vulnerable.
    Mr. Levin. All right, thank you. My time has expired. I 
yield back, Mr. Chairman.
    Mr. Engel. Thank you.
    Mr. Mast.
    Mr. Mast. Thank you, Chairman. I would take the opportunity 
to answer a question with a question that was asked a moment 
ago, why walk from a treaty, and I think the answer is 
relatively simple to state and not simple in terms of 
geopolitics. But if you have a partner in a treaty that is year 
after year, decade after decade not being a good partner in 
that treaty, then that is an answer why you walk from that 
treaty. And I think that is the answer that President Trump 
came to as well.
    Now I want to speak on a different issue. I am certainly 
willing to acknowledge that sometimes caution can be the better 
part of valor. I would say that the work of a statesman and 
work of policymakers in the U.S., it should not be conducted by 
those that are so cautious that they are viewed as scared. I am 
very thankful that we do not have a President that is so 
cautious that he is viewed as scared.
    And I would say that NATO will better enable itself to 
address today's challenges if, in fact, it does shake itself to 
the core.
    Ms. Flournoy, you said that NATO in some of your remarks is 
being shaken to its core. I think NATO is better off being 
shaken to its core for a number of reasons. The Soviet Union no 
longer exists. Russia is not the Soviet Union. It is still a 
massive threat, but it is not the Soviet Union. China is 
different today in 2019 than it was in 1989 and 1969, and China 
is not the Soviet Union.
    The attack of today, it is different. It is a cyber attack. 
It is a currency attack. It is financial markets. It is trade. 
China is not acting yet today in the same kind of global 
military that the Soviet Union was. They do certainly act as a 
global cyber threat. They are trading with all. China is 
trading with all. They are not isolating themselves from all in 
the West. China, you know, they are not yet exporting 
communism. My friend and I, Mr. Yoho, were speaking about this 
yesterday. China is not yet exporting communism, but they are 
certainly spreading their own brand of Chinese socialism around 
the world.
    So I believe that NATO in order to enable itself for the 
future, they should shake themselves down to the core. They 
need to shake off the rust. I think they probably should have 
done this after Germany was reunited many years ago. They 
failed to do it at that time. They probably should have done it 
at that time.
    So I want to ask in that line to any of you--and probably 
certainly to you, sir--how do you suggest that we shake that 
rust off to ensure that NATO has strength through its relevancy 
to the current threats both beyond conventional military that 
exists today that are different, they are different types of 
direct attacks, how do we shake NATO to its core to recognize 
that a cyber attack is a cyber attack on all and get that kind 
of recognition so that we go out there and attack in the same 
way that we would expect through conventional military forces 
coming against us?
    And to go beyond that can you give an estimate of costs as 
we constantly speak about the 2-percent, give an estimate of 
costs that are associated with a robust cyber defense as an 
alliance as well as having that ability to have a robust cyber 
attack ability as a NATO alliance. What is the difference in 
costs that are associated either up or down related to that? 
Sir?
    Mr. Brzezinski. Sir, I cannot give you an answer on cyber 
cost. It is just out of my area of expertise. But your point 
about shaking up the alliance, I have a great degree of 
discomfort with much of the President's rhetoric. It can be 
divisive in an unhelpful way. It can communicate a lack of 
commitment that is not healthy to the alliance and maybe even 
animate some of the aspirations of the likes of Putin.
    But he has brought and with almost like a sledgehammer a 
longstanding concern that has been bipartisan and has been 
shared by multiple administrations over the lack of, or the 
inability or lack of willingness of our allies to spend the 
money they need to do in order to meet their not just their 2 
percent because it is not just 2 percent, it is their 
commitment to be ready to live up to the responsibilities they 
have in execution of Article 5. And when the President hits 
them hard on that it does shake them up.
    I think when you have hearings like this, I think when the 
alliance has public reports that report on the readiness of 
allied forces that helps shake them up. You know, when I think 
about the German move to higher levels of defense spending, it 
is true they are not yet committed to 2 percent fully, even 
though they say they have done it through the Wales Summit.
    But they have not put their idea into a plan on how to get 
there, the fact is they are making progress. Part of it is from 
U.S. direct pressure, part of it is from looking East and 
seeing what is happening, and part of it is because of news 
reports and parliamentary inquiries into the embarrassing state 
of readiness of the German military. When you have exercises 
being conducted with broomsticks as opposed to rifles and 
tanks, the German taxpayers do not like to see that. They are 
uncomfortable with it; it is a pride issue.
    So the more the alliance can do, the more you can do to dig 
into and bring out the facts and figures about the readiness of 
our allies and relate that readiness to kind of the contingency 
plans we are planning for will help shake up the alliance in 
the way you wish.
    Mr. Mast. My time is long expired. Thank you for your 
comments.
    Mr. Engel. Thank you.
    Ms. Spanberger.
    Ms. Spanberger. Thank you, Mr. Chairman. Thank you to the 
witnesses today.
    In an article last year, the Atlantic Council highlighted 
not only the defense and security benefits of NATO, but also 
the economic importance of the alliance in securing and 
protecting European economies and incentivizing European 
acquisition of U.S. military equipment and platforms. And in a 
recent congressional Research Service report, they added the 
point of information that the EU, of which 22 member States are 
also NATO allies, the EU is the United States' largest trading 
and investment partner and through the promotion of security 
and stability in Europe NATO protects the extensive economic 
partnership that accounts for 46 percent of global GDP.
    So my question for you all today is what are the economic 
impacts of the NATO alliance and are there benefits and, if so, 
could you speak to them to the U.S. economy and our own trade 
relationships that are tied to the existence and the continued 
strength of NATO?
    Mr. Brzezinski. I will take a quick shot at that. NATO 
provides a transatlantic security architecture that over the 
last 70 years has provided for peace among its members and 
defended them against external aggression. And I would say that 
is a core criteria for robust and sustained economic growth and 
that is how NATO contributes to the economic well-being of the 
transatlantic community.
    Mr. Lute. I would only add that first I agree with your 
data. I mean 46 percent of the world GDP, if you combine the 
United States and our European allies, is a substantial weight 
which is useful on our side if we are going to compete with 
China. So I think that is obvious. And then very much agree 
with Ian's point that the security architecture that secures 
that 50 percent of world GDP is NATO. So this is simply a 
matter of securing our investments.
    Mr. Chollet. And just to build on that, when we talk about 
a Europe whole, free, and at peace it is often thought of in a 
political context. But of course one of the great triumphs of 
the post-cold war era has been the economic dynamism and growth 
of Europe. That has helped Europe a lot, which is why all of us 
have concerns about Europe's lack of spending on defense 
because Europeans are more able to spend on their defense than 
they were 25 years ago.
    But that is also a huge benefit to the United States. 
Europe's success also can equal American success.
    Ms. Flournoy. I would just add, in addition to modernizing 
and adapting NATO for the future, the most important thing we 
could do to shore up the transatlantic community for all the 
reasons you described is to negotiate a free trade agreement 
with the EU. That would give us tremendous leverage vis-a-vis 
China and tremendous additional prosperity for Americans here 
at home.
    Ms. Spanberger. Thank you very much. And to buildupon the 
answers that you just provided and the prior line of 
questioning from my colleague from Florida, we are speaking a 
lot about moving into the future but he referenced the fall of 
the Soviet Union. He referenced the fall of the Berlin Wall.
    And I am curious if you could comment on what impact you 
think the stabilization and strength that was provided to 
Europe as a whole, to the United States and our relationship 
with our fellow NATO countries, were in fact how the strength 
of NATO perhaps played into those changes that we saw shifting 
with the fall of the Berlin Wall and the fall of communism.
    Mr. Lute. Well, I think the image, the aspiration to join 
the alliance but also to join the EU was a great motivation for 
these newly freed, former Warsaw Treaty members and also some 
Soviet republics, the Baltics, for example, so it created for 
them an incentive to move toward. And when the wall came down, 
the Soviet Union broke apart, they voted with their feet. They 
were now free to make a choice and they voted to join NATO and 
they voted to join the EU.
    So it has been a real inspiration and an incentive and I 
think it remains that way today, which is why a number of us 
have highlighted the importance of sustaining the open-door 
policy because it continues to serve as an incentive for the 
kind of political, economic, and military reforms that we 
favor.
    Ms. Spanberger. Thank you so much for your comments on this 
topic related to economic strength that NATO brings or 
stabilization that NATO allows for the economic growth for the 
United States and also NATO member countries. I appreciate your 
time today. Thank you. I yield back.
    Mr. Engel. Thank you very much.
    Mr. Pence.
    Mr. Pence. Thank you, Chairman Engel, Ranking Member 
McCaul, and the witnesses for being here today.
    I am a strong supporter of NATO and believe our shared 
security interests are and should remain a feature of the 
transatlantic relationship. I will continue to support the 
President and his administration in strengthening NATO.
    As you know, since the late 1990's, the EU has been working 
with limited success to form a unified European defense policy 
complete with independent EU defense capabilities. These 
efforts appear to have gained momentum in the past year or two. 
I want to rattle off a series of questions which are really 
basically the same, if you could each answer these.
    What is your assessment of these efforts? Could the 
development of a more robust and independent EU defense 
capability benefit NATO and the United States? And is there a 
risk that EU efforts could undermine NATO's effectiveness and 
diminish its capabilities?
    Ms. Flournoy. Congressman, I think that the intensification 
of this discussion within the EU on an independent defense 
capability is, in part, a result of the greater uncertainty 
they feel about the U.S. commitment to NATO. That said, I think 
if EU defense efforts spurs additional European defense 
spending, we should count that as a plus. What worries me is if 
the EU were to develop a sort of view of strategic autonomy 
that would sort of have Europe go its own way without really 
coordinating with, working closely with the United States in 
addressing shared challenges, I think that would be a loss for 
us and for our security.
    Mr. Chollet. Congressman, I concur with that. I think on 
the one hand discussions within Europe which are only 
increasing about developing some sort of independent capability 
is a reflection of uncertainty about the U.S. and hedging about 
U.S. behavior, but it is also a response to an increase by all 
of us to urge them to spend more on their defense.
    And it is also a recognition that--and I think this part is 
positive--that there are going to be things they do in the 
world where the U.S. is not going to do that, for example, in 
West Africa where the U.S. may not be as engaged as France and 
other EU partners. I think it is important though as they 
embark on this--this is not a new story. Twenty years ago we 
were also dealing with Europeans talking about developing a 
more independent defense capability.
    Three rules to keep in mind or three principles, the three 
Ds: the Secretary of State, then Secretary of State Albright 
enunciated no duplication between what the EU is going to do 
and what NATO is going to do, to make sure this is 
complementary; no discrimination, so making sure that as Europe 
develops this capability they are not discriminating against 
those few countries that are members of the EU, but not of NATO 
or vice versa; and no duplication, so--sorry, no decoupling, 
meaning that this is not about Europe separating itself from 
the United States fully so it can go on its own.
    I think as long as we keep in mind those core principles we 
should be supportive of Europe trying to make itself stronger 
on defense.
    Mr. Lute. Congressman, I think we can have it both ways. We 
can on the one hand say you must do more, and then when the EU 
comes up with incentive programs or ways to create efficiencies 
among EU members then we critique those as well. So I would err 
on the side of applauding the EU initiatives to try to generate 
capabilities.
    I very much agree with no duplication and so forth. But 
quite candidly, in my view we are decades away from being in a 
position where we have to actually compare EU capabilities to 
NATO capabilities and worry about duplication. They have a long 
way to go.
    Mr. Brzezinski. Sir, I would just add on the duplication 
point, my concern is that there is a drive to create an 
independent command structure that would be duplicative of 
NATO. That is what the French are driving. That would be 
unhelpful. And when we look back at the history of EU defense 
initiatives it has not been that impressive. They have created 
battle groups that have never been used. They have talked about 
being a driver of increased defense spending. I have not really 
seen any evidence that the EU has been an effective driver of 
defense spending.
    But if they are willing to talk about leveraging the EU and 
its economic capacities to increase the capacity to invest and 
the development of technologies and capabilities and capacities 
for defense operations, then I am kind of interested and I 
would make these recommendations to the EU. One, I would focus 
less on autonomy and more on the European pillar, because when 
we talk about the European pillar we are talking about European 
capability within the transatlantic framework.
    I would urge them through projects like the European 
Defence Fund that they are standing up, a $13 billion fund and 
the PESCO initiative, to focus on things that are substantive, 
that are real NATO shortfalls. It would be far more useful if 
we could see the EU be a driver of increased air and missile 
defense capabilities within our European armed forces, more 
airlift, more air refueling capability, more in air and missile 
defense. If these EU initiatives were used to drive forward 
those capabilities I would be highly, highly supportive.
    Then I would note that there is one area where they are 
actually, potentially, on the cusp of doing something useful. 
The EU will be directing in its next big 7-year budget 6.5 
billion euros to help improve military mobility. That is, 
investing the infrastructure, the roadways and the highways and 
the airports and the ports that will help facilitate the more 
ready movement of heavy equipment for military operations. That 
kind of infrastructure investment is something that the EU is 
perfectly positioned to do and I encourage you to encourage 
them to move, you know, with dispatch on that.
    Mr. Engel. Thank you.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Let me start with you, Ms. Flournoy, back to the 2-percent 
of GDP target. That is, the whole point of that target is to 
get our allies to invest more in their actual military 
capabilities so that they can partner with us. If they spent 
that money on uniforms or increased salaries for their troops 
it would defeat the whole purpose of the 2-percent. Is that a 
fair assessment?
    Ms. Flournoy. Yes, that is correct.
    Mr. Malinowski. If we were to demand that NATO allies pay 
us billions of dollars for the so-called privilege of being 
allowed to base our forces overseas that presumably could count 
against their 2 percent but it would not be investing money in 
their own defense capabilities. Is that a fair statement?
    Ms. Flournoy. That is correct. And, you know, I think the 
truth is our allies already do defray much of, you know, a 
substantial portion of the costs of our basing overseas. It 
varies from country to country, but those are negotiated 
agreements. But we are there for our own interests. Our real 
interest on the 2-percent is to ensure that money is going into 
the capabilities we will need for the future, be it high-end 
military readiness capabilities or capabilities for the gray 
zone that Ambassador Lute talked about.
    Mr. Malinowski. Exactly. And they would have less money to 
invest in those capabilities if we were somehow to force them--
--
    Ms. Flournoy. Yes.
    Mr. Malinowski [continuing]. To spend billions for 
hosting----
    Ms. Flournoy. And I also do not think they would accept 
that deal.
    Mr. Malinowski. Indeed.
    Ms. Flournoy. I think we would be invited to bring all of 
our forces home, which would be both detrimental to our 
security and very, very costly to the American taxpayer.
    Mr. Malinowski. Exactly. So would we save any money if we 
brought our forces home where we pay----
    Ms. Flournoy. No, it is generally in most cases it will be 
far more expensive to bring those forces home and rebase them 
in the United States.
    Mr. Malinowski. Thank you.
    Mr. Lute, I wanted to ask you a couple of questions about 
Afghanistan. A number of us, and you have heard this I am sure 
from our colleagues, were in Munich. We had an opportunity to 
engage with our allies on these decisions potentially to 
withdraw from Syria and from Afghanistan. We are all very 
keenly aware of the anxiety that this has caused our allies who 
have been with us all the way in these deployments. They have 
no idea what we plan to do.
    Let me ask you about one particular angle related to 
Afghanistan. If we were to follow through on the publicly 
stated plan to withdraw our regular forces from Afghanistan, 
assuming that there are still terrorists in Afghanistan's 
future, al-Qaida or ISIS, is it fair to assume that we would 
still have special forces, units operating in Afghanistan?
    Mr. Lute. I am sorry. That is the topic of the ongoing 
negotiations led by Ambassador Khalilzad. So how is it that we 
could by way of this negotiation with the Taliban and 
eventually the Taliban with the Afghan Government buy some 
insurances that the Taliban pledge that they will not allow 
ISIS or al-Qaida is actually enforced, so the nature of this 
enforcement mechanism is exactly what Ambassador Khalilzad is 
working on.
    Mr. Malinowski. Yes, I am just trying to bear down on what 
realistically will happen because the American people are being 
told we are leaving and my expectation is we will still have 
special forces operating in Afghanistan. We may not talk about 
it so much. We will still have CIA bases as we currently do in 
Afghanistan in the hinterlands. We may not talk about it as 
much.
    And if I am right about that then the result of the 
withdrawal will be that we will still be in Afghanistan, but 
instead of partnering with our allies, instead of partnering 
with an elected Afghan Government that has some legitimacy, we 
will be partnering with warlords who are raping little boys and 
girls and doing things that actually will make the long-term 
mission harder to achieve. Bottom line, we will still be in 
Afghanistan. So is this really an honest conversation that we 
are having?
    Mr. Lute. So it is very hard for me to comment on 
negotiations that I am not participating in, but I know for 
sure that this question of how you sustain a Taliban pledge and 
how you enforce it if we were to withdraw, how it is actually 
done in practice. And so, you know, we are talking about 
conjecture----
    Mr. Malinowski. But in a future in which there is still al-
Qaida and ISIS there, pledge or no pledge, we would not ignore 
that.
    Mr. Lute. I think we have to assume that al-Qaida and the 
Islamic State in that region would have some residual presence 
and we need to buy some insurance against that.
    Mr. Malinowski. OK, anybody else, thoughts on that?
    Mr. Chollet. I would just say although I am not privy to 
the negotiations either, your assumptions are reasonable about 
what sort of presence we would seek to keep in Afghanistan 
given the threats that I think we all agree will remain there.
    Mr. Malinowski. Thank you.
    Mr. Engel. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you, panelists. I 
appreciate you being here and going through this long hearing.
    We are at 70 years of NATO and it has been good. You know, 
there has not been another world war since NATO. Here we are 70 
years later, yet the world is going through a challenge in 
world powers we have not seen since World War II, and a big 
part of that reason we have not is again because of NATO. It 
has been effective in that.
    But things are changing. And if you look back--I am 64 and 
I have changed a lot in the last 64 years. And so things get 
stale after a while and they have to be updated. And, you know, 
I think, you know, the testimoneys we have heard today, the 
comments, you know, whether NATO is paying their fair share or 
not, I mean it has been hashed over and over again. President 
Obama said that. President Bush said that the people are taking 
advantage of us or free-riding.
    At what point--and Ms. Flournoy you said that this is not 
the time to nickel-and-dime NATO. When would be the time? You 
know, do we wait another three to 5 years? Keep in mind we are 
at $22 trillion in debt, 5 years we are going to be about $30 
trillion in debt. Our interest that we owe at that time will be 
equal what we are spending on our military. So when do we get 
other people to pay and, you know, pony up?
    Ms. Flournoy. I think we should continue to press for our 
NATO allies to pay their fair share, but my focus would be on 
what else are they doing to shore up deterrence against Russia.
    Mr. Yoho. Sure.
    Ms. Flournoy. What else are they doing to contribute to 
counterterrorism globally? What else are they doing to help us 
build gray zone?
    Mr. Yoho. All right. But can we wait another 5 years before 
people do that?
    Ms. Flournoy. No, and we are not and we should not.
    Mr. Yoho. OK.
    Ms. Flournoy. And no administration in recent memory has 
waited. They all pressed.
    Mr. Yoho. All right. And as we look at the results, it was 
interesting. I went to the Cleveland Convention when it was 
Candidate Trump going into the Convention, and I spoke to a 
group of Ambassadors from around the world on energy. And it 
was interesting because there was a reception after that. They 
came up to me--I had my wife with me and our deputy chief of 
staff--and they says, we want to introduce ourselves, we are 
members of NATO but we have not been good members.
    And this was when President Trump, Candidate Trump was 
talking about NATO is not paying their fair share. This is what 
happened. They told me they had been bad members but they were 
looking to increase their payment to 2 percent as was the 
pledge, in addition to pull up the arrears that they owed. So 
the rhetoric that he spoke, whether you liked his tactic or 
not, the results I think we are all in agreement was pretty 
effective. And, you know, people are not used to that kind of 
rhetoric, you know, we could say things better maybe.
    But I would rather look at the results and get the positive 
results because it does get people to pay attention and kind of 
reorganize what NATO--and I think what my colleague, Mr. Mast, 
brought up, you know, we need to update this into the 21st 
century for the cyber attacks. I mean I just read today that 
China is hacking into our naval intelligence and our 
construction and all the new weapons that we are creating. Is 
that an attack on us? And when do we all come together 
collectively to do that?
    And, Mr. Brzezinski, you were talking about Putin thrives 
on weakness indecisiveness--hence, Georgia; hence, Crimea. They 
walk into and they take over. We see that the freedom of 
navigations are not happening in the Azov Sea or the Baltic 
Seas and so Putin, as Xi Jinping, sees weakness so they 
aggress, Xi Jinping in the South China Sea. Putin is going to 
aggress unless we stand up definitely as a bloc.
    And if they know we have been ineffective that members are 
kind of stale, yes, we are in this NATO thing but we do not 
really have to pay, it just shows weakness. And I think that is 
one of the reasons Putin did what he did. Am I wrong in that?
    Mr. Brzezinski. Yes, sir--no, sir, you are not wrong in 
that.
    Mr. Yoho. I was hoping you would say no.
    Mr. Brzezinski. Just a quote on burden sharing in talking 
about decades, my favorite quote goes back to 1953 when 
Secretary of State John Foster Dulles threatened, quote 
unquote, an agonizing reappraisal of the U.S. commitment to 
European security if its allies do not step up. I think it is 
interesting. It shows how long a debate we have had on this, 
but at least we are making progress.
    Mr. Yoho. You know and that is a great point because that 
has come up over and over, and through my notes I read it has 
come up over and over again. I mean some of this goes back, it 
says, two decades ago they were talking about this.
    Mr. Brzezinski. It is time for a----
    Mr. Yoho. I was going to say, well, damn it, when do you 
stand up and do it? But I should not say that. So dang it, when 
do you stand up and do something?
    And I am thankful this President had the backbone. You know 
and he will admit, I am not your typical politician, but he is 
looking for the results and I think we should applaud the 
results that he is getting to get people to come forward 
because it makes us all collectively stronger. I mean would you 
agree in that?
    Ms. Flournoy. I think that we should applaud the burden 
sharing results, but the other result has been this sort of 
existential doubt that has been created on the part in the 
minds of our allies about whether they can count on the U.S. 
That is also a result of the same rhetoric. So there has been 
positive, but there has also been a negative and we need to 
take account of that as well.
    Mr. Yoho. All right. Well, you go back to the criticism of 
NATO burden sharing have been articulated by both Republican 
and Democratic Presidents, and you go on and it says--I think 
you wrote this. It was Secretary Gates'.
    It said President Obama called a number of American allies 
free-riders toward the end of the administration and also 
Secretary Robert Gates did a hard line against NATO's inability 
to share more of the burden during the farewell speech. The 
blunt reality is there has been a dwindling appetite patience, 
and it goes on.
    And the end result is the General now, Stoltenberg, also 
said that President Trump is helping us adapt the alliance and 
has made these people pay up. So I think the results are good. 
Let's look forward and what we are going to do on the 
cybersecurity.
    And I am way over. Sorry, Mr. Chairman and members.
    Mr. Engel. Thank you.
    Mr. Trone.
    Mr. Trone. Thank you all for coming here today.
    My first question, let's go back to Turkey again. The case 
right now, they are working to look at buy the Russian defense, 
the S-400. They have already ordered, we have not delivered 
yet, the F-35. It is unacceptable that they buy this system and 
have the F-35. What is the response that Congress should have? 
What can we do here to make that crystal clear that we cannot 
go down this road?
    Ms. Flournoy?
    Ms. Flournoy. Well, I think as you review foreign military 
sales, I think you will have your opportunity to send signals 
to Turkey. But I would encourage delegations to go visit and to 
talk to, you know, Turkish, the Turkish President, his 
administration, other members of Parliament there, to let them 
know that this will really complicate our ability to provide 
the kind of U.S. defense capabilities that they like to have as 
part of the alliance.
    And I think the backsliding on democracy needs to be part 
of the conversation. We have not been raising that issue enough 
with our Turkish counterparts. We need to press them on this 
issue. We need to connect what goes on in that sphere with what 
we can, you know, the degree to which we can cooperate in the 
security sphere.
    Mr. Trone. There is no question I think we need to connect 
that plus the democracy and the Kurds and the treatment we have 
had there and the potential for more atrocities in the Kurds as 
we pull out Syria.
    Ms. Flournoy. Absolutely.
    Mr. Trone. Is there any point at all that you have to 
reconsider this, them being part of NATO? Are we going to reach 
that point at some point?
    Mr. Lute. So if I may, so unlike the EU treaty, which has 
provisions for sanctioning member states who drift from core 
values, the NATO treaty has no similar provision. In fact, the 
only thing that the Washington Treaty says is that if you wish 
to leave NATO you have got to give 1 years' notice.
    So I think there are ways that we could pressure Mr. 
Erdogan and his political elite to come back into line, closer 
into line with U.S. interests, for example, the S-400 and F-35 
debate. But also to underline Michele Flournoy's point about 
values, they need to understand that there is no NATO ally 
today which has slipped further from the founding values of the 
alliance than Mr. Erdogan's Turkey. And that is simply 
unacceptable.
    Mr. Trone. Agreed. The Baltics, lots of hybrid warfare 
there, cyber capabilities happening through the small Baltic 
States. Is this an area where these small NATO partners are 
innovating in any way that we could learn and that would be an 
advantage to us as we look to more problems with cyber and 
hybrid warfare from Russia down the road?
    Mr. Brzezinski. Absolutely. I mean if you look at the 
Baltics they are on the cutting edge when it comes down to 
combating hybrid warfare. There is a reason why NATO has a 
Cyber Centre of Excellence in Estonia, because they have been 
most forward-leaning. They are the ones who experienced the 
first kind of nationwide cyber attack in 2007, so they are 
thinking in very innovative ways how to deal with cyber 
attacks.
    You go to Lithuania, they have one of the more 
sophisticated public response teams that deal with social media 
attacks. For example, when a NATO unit was deployed over there, 
there was false accusations made of a rape conducted by NATO 
soldiers. They, in real time, responded to dissipate the impact 
of that story. So there are many lessons we can learn from our 
Baltic allies.
    Mr. Chollet. And if I can just add, what NATO is doing in 
the Baltics today is a great example of the distributed 
responsibility that the alliance can bring. This is not a U.S.-
only effort in the Baltics to try to defend the Baltics and 
bolster them. This is something where there are four battalion-
sized battle groups there: one led by the U.S., one led by the 
Brits, one led by the Canadians, and one led by the Germans.
    So this is an example of how a strong alliance of capable 
allies willing to step up and lead can share the responsibility 
for the common good.
    Mr. Lute. I would just cite another dimension of this, and 
this is an effort to break the energy dependence that the 
Baltic States have on Russia. So, most important, there is an 
example of a recently opened LNG terminal in Lithuania which 
now opens them up to the potential of importing LNG energy gas 
from the world marketplace and not be wholly reliant on their 
ties to Russia.
    Mr. Connolly [presiding]. Thank you. The gentleman's time 
has expired. The gentleman from Kansas, Mr. Watkins, is now 
recognized for 5 minutes.
    Mr. Watkins. Thank you. Thank you, Mr. Chairman. Thanks to 
the panel for being here.
    I would like to talk about the Arctic, questions are open 
to anybody. Obviously the Arctic has geopolitical 
ramifications. What is the NATO's strategy with regard to the 
Arctic?
    Mr. Lute. It is very light on strategy, Congressman. I 
would say that there has been especially with regard to the 
climate, impacts in the Arctic and the potential that a sort of 
a northern tier transit route from China into the Atlantic 
becomes more and more a possibility over the coming years that 
NATO is paying more attention here. I would also highlight the 
Arctic though as an example of engaging with Russia.
    Even though we have, the hearing has suggested many ways in 
which we compete with Russia, right, one effective way to 
engage with Russia is exemplified by the Arctic Council--I 
think that is the correct name--which brings together the seven 
Arctic nations to include other NATO allies, with Russia, to 
discuss about the climate but also security implications in the 
Far North. So this is becoming more important in climate here 
intersects NATO strategy.
    Mr. Watkins. Thank you. And I know we talked a lot about 
China today, but would NATO describe China as a threat to 
transatlantic security?
    Mr. Lute. Not today and not, I think, in the foreseeable 
future. But NATO needs to wake up to China as a competitor and 
in particular in the commercial investment space, 
transportation and information systems, and increasingly in the 
political space. They tend to buy their way into influence on 
the commercial side and then expect political payoff.
    Mr. Brzezinski. If I could add on that, I mean NATO does 
have a foundation to work with when it comes down to dealing 
with China. Over the last decades it has developed partnerships 
with countries like Japan, Korea, Australia, and New Zealand. 
This provides a foundation upon which it kind of deep and a 
more elaborate, a more substantive set of engagements in the 
region.
    It is something the United States should be encouraging 
NATO to do as we try to develop a more comprehensive strategy 
to dealing with an increasingly assertive China. And I think if 
we make the case to our Europeans we will find them somewhat 
more receptive than before because they are beginning to feel 
the pressure from China themselves in the economic and the 
cyber domains.
    Ms. Flournoy. The other thing I would just add, sir, is 
that I think China watches U.S. behavior very carefully, 
globally, and that includes how we interact with our allies. So 
if there are troubles or tensions with our NATO allies, they--
it often makes our Asian allies very nervous as well and China 
looks for ways to divide and exploit that.
    Mr. Watkins. Well, let me ask about then what strategy, and 
if not strategy, roles, responsibilities, do NATO have with 
regards to North Korea?
    Mr. Chollet. Other than these partnerships that Mr. 
Brzezinski mentioned, none.
    Ms. Flournoy. But I think as politically, you know, the 
NATO allies become very, very important allies to stand with us 
politically to press for the objective of denuclearization and 
to make sure that North Korea and provocative behavior is 
deterred if not answered. So I agree there is no military role, 
but politically they can be very important.
    Mr. Watkins. Sure.
    I yield back, Mr. Chairman.
    Mr. Connolly. I thank the gentleman. The chair now 
recognizes the gentleman from Texas, Mr. Allred, for 5 minutes.
    Mr. Allred. Thank you, Mr. Chairman, and thank you to our 
distinguished panel for being here today.
    I am of the opinion that NATO is the most successful human 
alliance in history and that with this being the 70th 
anniversary of this historic alliance I want to make sure that 
we are doing everything we can in Congress to be a 
counterweight to some of what we have seen from obviously our 
President.
    And I just want to talk to you a little bit about I try to 
drill things down for folks in my district, folks in Texas, I 
represent parts of Dallas, of what the impact of our foreign 
affairs and our foreign policy has on us at home and, you know, 
obviously NATO's ability for us to maintain kind of this era of 
post-World War II peace has been critical in that.
    But, Ms. Flournoy, if you could just talk a little bit 
about our trade with that NATO empowers and enables, how that 
interaction with our allies is good for our economy and how 
this is really a critical relationship for us across more than 
just some of the things that might be people need to be more 
aware of.
    Ms. Flournoy. So NATO has provided the foundation of 
stability on which the transatlantic economic relationships 
have been built, more than a trillion dollars of trade and 
goods and services between the U.S. and Europe every year. That 
accounts for, you know, a significant percentage of our GDP. It 
also accounts for a number of export-related jobs in the United 
States. I do not have the figures for your district in Texas, 
but I guarantee you there are some jobs in your district that 
are dependent on our trade with the Europeans.
    So it is really, that trade relationship is an engine for 
the economies on both sides of the Atlantic. And as we all have 
said before, as a matter of strategy it would be very 
beneficial for the United States to leverage that in pushing 
back on China when we talk about its unfair trade practices or 
its theft of IP or its denial of our market access. We are much 
stronger when we push back together with our European-Asian 
allies than when we do it by ourselves.
    Mr. Allred. Absolutely. I agree with you. The rules-based 
order that NATO and our transatlantic alliances have allowed to 
enforce, I think we underestimate its importance for our 
economy.
    We had Secretary Albright in here recently, and in addition 
to being just an incredible person she said that this was 
Article 1 time and that it was time for the Congress to 
reassert itself in our foreign policy.
    And I would just ask each of you, if you could, to touch a 
little bit--I am sure you have been asked this previously here 
in the hearing--about what you think Congress can do, what we 
can do and what I can do individually as a member and what we 
can do as a body to make sure that our allies understand our 
commitment.
    We obviously had a vote a couple weeks ago that was 
overwhelmingly bipartisan showing our support for NATO, but 
what we can do to make sure that the rest of the world 
understands that we are committed to this alliance and that we 
are not going to let us backtrack?
    Mr. Lute. So three quick things, Congressman. First of all, 
the NATO Support Act is a big step in the right direction. And, 
you know, it may seem like something that does not sort of have 
an impact outside of Capitol Hill; our NATO allies read that 
and appreciate it. So that is step No. 1. Step No. 2 is fully 
fund the European defense initiative which promotes the kind of 
work that we have talked about here this morning.
    Step No. 3, I think Congress needs to go one step further 
and that is to pursue bipartisan legislation that prohibits the 
President from unilaterally withdrawing from our most important 
alliance. And as I said in my opening statement, it took two-
thirds of the Senate under advise and consent, a constitutional 
requirement, to approve the NATO treaty; should not simply be 
an executive move to depart.
    Mr. Chollet. Congressman, if I could just add, I concur 
with those three points and the fourth, which has come up 
several times so far this morning, which is having you all 
engage directly. The incredible show of support by the size of 
the delegation in Munich was widely noticed throughout Europe.
    There is going to be another opportunity obviously in less 
than a month when the Secretary General of NATO comes to speak 
before a joint session of Congress. And also many NATO 
ministers will be here in Washington and I know will be anxious 
to interact and hear from all of you about your views not just 
on the U.S. role in the alliance and the importance of U.S. 
leadership, but also ways the alliance needs to get sharper and 
needs to reform. And I think that is an important message that 
comes from Congress as well.
    Mr. Connolly. Thank you.
    And before I call on Mr. Zeldin, I just, Mr. Chollet, to 
your point we had the largest delegation in living memory both 
at the Munich Security Conference--I think there were 55 of us 
there--and at the first, the opening session of the 
Parliamentary Assembly and the North Atlantic Assembly meetings 
in Brussels. It was also the first time ever a speaker of the 
House attended both meetings and which having the third ranking 
member of the U.S. Government there to reinforce. And then as 
you know, subsequently we have invited Secretary General 
Stoltenberg who I believe may be the first Secretary General of 
NATO ever to be invited to address a joint session of the 
Congress.
    So I think we are making statements and we certainly, I 
think we will followup legislatively, Mr. Lute, on what you 
cited as well. But I think on a bipartisan basis, Senate and 
House, statements could not be clearer in terms of where we are 
in our support for this alliance.
    And with that I call on the gentleman from New York, Mr. 
Zeldin.
    Mr. Zeldin. Well, thank you. And as someone who was also at 
the Munich Security Conference I would echo Mr. Connolly's 
point. I believe that it was important to have such an 
important bipartisan showing there. And the support for this 
alliance should not just remain strong, but as Mr. Chollet just 
pointed out we need to find ways to make it even stronger.
    I wanted to talk briefly about Turkey and Syria, but as two 
different topics. And like can we go into a little bit more 
into detail, I believe, Mr. Lute, you started to get into it as 
you were discussing with Mr. Trone the dynamics of Turkey 
purchasing an S-400 surface-to-air missile from Russia, 
purchasing F-35s from the United States, I believe the S-400 
acquisition would be made by Turkey before the F-35s are 
scheduled to be delivered.
    If you could just--and I would hate to see that S-400 
operating in that particular airspace whether it is our F-35s 
or anything else as far as the United States military and our 
allies go. So you can just get--and the question is open to all 
four of you. If you could talk a little bit more about what 
this means and why this is problematic.
    Mr. Lute. So the original challenge here is the Turkish 
decision to buy the S-400. That is important because that 
Russian-based system will never be integrated into the overall 
air and missile defense system in NATO. And we will simply 
block that integration because integrating the Russian system 
would open vulnerabilities to the whole NATO integrated system. 
So Turkey is essentially spending money to buy a national-only 
system which from the outset they have been told will never be 
integrated.
    So it is a very sort of selfish nationalist sort of 
decision which is shortsighted and will never be used. It will 
never contribute to NATO. It is further complicated if we were 
to proceed with an F-35 purchase, because now you would have 
under one national command structure the premier Russian-built 
air defense system against our premier aircraft. And you can 
imagine that we would never be certain enough to ensure that 
these did not game one against the other and open up 
vulnerabilities for the rest of the F-35 fleet. So this is a 
two-part story and they are both bad news.
    Mr. Zeldin. Anybody like to add anything?
    Mr. Chollet. If I could just add, just to complicating this 
further on the F-35 side, my understanding is that part of the 
Turkish purchase of F-35 involves some co-production, so which 
means part of the plane would actually be built in Turkey. And 
so I know that our EUCOM commanders are talking through with 
the Turks about how that in itself would be extremely 
problematic. Let alone them acquiring but then producing the F-
35 at the same time they also are trying to stand up a Russian 
system on their own territory will, I think, make it even 
harder to see how that would go forward.
    What I can say is my sense is this administration, really 
actually going back two administrations now as this has been on 
the table, it has been very consistent and very clear with the 
Turkish Government about the mistake we believe this would be 
and the fact that it will jeopardize other elements of our 
military partnership with them.
    Mr. Zeldin. It seems like there is some kind of a game of 
chicken going on here between Turkey and the United States to 
see who blinks first. And I think the United States needs to 
remain resolute in insisting that if Turkey wants to acquire F-
35s that they are not going to be able to proceed with their S-
400's. Either of the other two witnesses want to add anything 
else on this topic?
    Shifting gears to Syria, at the Munich Security Conference 
there was a discussion of what our European partners thought 
about taking on a bigger role in Syria. I would like you, if 
any of you could comment on what that would look like from a 
NATO standpoint, please.
    Ms. Flournoy. I do not foresee NATO taking on a much larger 
role because I do not think there is consensus across the 
alliance for that. But I, you know, we have had key allies 
individually step up sort of relying on the backbone of U.S. 
Special Operations Forces and our enablers and our Command and 
Control to contribute as whether it is as trainers or in 
reconstruction or in ISR overhead combat air missions.
    I think if the U.S. were to withdraw or sharply reduce our 
presence, the backbone that they rely on would--those 
capabilities would not be there and you would see a 
commensurate reduction if not complete withdrawal of our 
European allies. So I do think the U.S. posture is critical as 
kind of the linchpin to the coalition posture against ISIL.
    Mr. Zeldin. And then real briefly----
    Mr. Brzezinski. I could add to that. I agree with what 
Michele has said. It is also a little bit of issue in getting 
the cart before the horse. You are not going to get NATO 
involved----in Syria until there is a real clear path toward 
peace and stability and reconciliation in that war-torn 
country. So when thinking about NATO and Syria I would look at 
the example set by NATO and Afghanistan, where an ally went in 
with some other allies and took control of the country, and 
when things reach a certain point with a certain degree of 
confidence that an alliance contribution would be part of a 
coherent strategy toward peace and reconciliation in the 
country, then the alliance would be more prepared. And actually 
I would say those are the circumstances under which we would 
want the alliance to get engaged.
    Mr. Zeldin. My time has expired. I yield back.
    Mr. Engel. Thank you very much.
    Mr. Connolly.
    Mr. Connolly. Thank you.
    And just another footnote, Mr. Lute, the resolution denying 
the President unilateral authority to pull out of the agreement 
is actually H.J. Res. 41 here in the House and that was 
introduced by Mr. Gallego and myself. And we have a companion 
bill in the Senate introduced by Senator Tim Kaine of Virginia, 
so we will work on that and with the help of the chairman we 
will get it before our committee.
    I want to followup a little bit on Turkey too. Mr. Lute, 
you kind of, I think you said something that I would call 
provocative. Not necessarily bad, but here is a NATO ally, one 
of the staunchest historically and yet they seem to be testing 
almost everything. They seem to be testing the common values 
that presumably unite NATO members, not just what we are 
against but what we are for, what we stand for.
    They are challenging us with respect to the Kurds who are 
the only group that consistently, successfully, fought by our 
side and won territory from the ISIS. And yet, the Turks would 
have you believe that all of those Kurdish fighters in Syria 
are, in fact, terrorists or affiliated with terrorists and we 
need to force them to give up territory they won with their own 
blood and our support and create some kind of cordon sanitaire, 
I guess, between Syria and Turkish border that presumably would 
be patrolled by the Turks. One does not know what the fate of 
the Kurds would be in that set of circumstances.
    Purchasing Russian equipment almost in defiance, maybe not 
almost, maybe in defiance of any kind of norm in terms of 
standard-setting by NATO, a crackdown on freedom of press, 
crackdown on opposition, on and on, using the coup maybe as a 
pretext to do all of that, what is one to conclude and what do 
you think ought to happen? Because there are other NATO members 
that are sliding too, Hungary and Poland come to mind, and it 
seems to me we have to have a current message or we become this 
disparate groups of 28 or 29 members that the only thing we 
have in common is, I guess, resisting Russian aggression in 
Central Europe.
    Mr. Lute. Congressman, I could not agree more. I think the 
values that are in the second sentence of the Washington 
Treaty, well before you get to Article 5 you have passed 
through the values, right, and that was agreed by all 29. So I 
think it is right for us both within the alliance, largely led 
by the Secretary General, to have quiet, diplomatic engagement 
with Turkish leaders about what they are placing at risk with 
their behavior.
    I also think though there is some introspection here for 
us. I mean we have no U.S. Ambassador in Turkey. We have a 
vacancy in the European bureau of the State Department. Who 
will do this engagement with Turkey if we have only people in 
acting positions? So we have to sort of vote with our own time 
and space and get senior level diplomats in place and then 
engage relentlessly with the Erdogan regime. But they are 
heading in the wrong direction.
    Mr. Connolly. Mr. Chollet, you are shaking your head yes.
    Mr. Chollet. I could not agree more. I mean Turkey is, as 
Ambassador Lute said, the one member of NATO that has gone the 
furthest, the fastest in terms of its democratic backslide and 
that is only going to be a continuing irritant in the alliance. 
And, in fact, as you suggested, Congressman, could, you know, 
undermine the second sentence of the preamble of the Washington 
Treaty which is all about democratic values. And we are not, 
frankly, in a good position right now to address this issue and 
deal with the Turkish Government on this issue.
    So beyond the military challenges we have which are 
significant with them with the acquisition of the Russian 
system, these political challenges of which NATO has an 
important role to play are going to be paramount.
    Mr. Connolly. I want to give Ms. Flournoy and Mr. 
Brzezinski an opportunity also to comment and it is primarily 
about Turkey, but it also, feel free to include our concerns 
about Hungary and Poland, and then I would yield back with the 
indulgence of the chair.
    Ms. Flournoy. I agree with what my colleagues have said. I 
just think that one of the things that has gone missing in our 
diplomacy is an emphasis on democracy and human rights and the 
protection of minority rights. It is so much about who we are 
as a Nation, it is so much about who we are as an alliance that 
that has to be part of the hard conversation we have with 
allies who demonstrate some degree of backsliding.
    You cannot have it both ways. You cannot be, you know, a 
member in good standing in an alliance that was formed to 
protect democracy and be in the process of obliterating 
democracy in your own country.
    Mr. Brzezinski. I concur with my colleagues. I would just 
add it is interesting to me the forward edge of the Russian 
sword is social media and hybrid attacks designed to undercut 
the commonality of values we have in the alliance that is 
binding it. By attacking those values and by attacking the 
unity around those values, our adversaries are actually trying 
to weaken one of our strongest assets which is the NATO 
alliance.
    Mr. Engel. Thank you very much.
    Ms. Titus.
    Ms. Titus. Well, thank you.
    Just to followup, when you talk about Turkey, nobody has 
mentioned the relationship with Greece and what is happening in 
Cyprus. Those are kind of sidelines to the main event, I guess. 
Also, I would say it is very difficult for us to take some of 
the members to task when we set such a bad example ourselves 
and I go back to the comment you made.
    You know, we heard a lot of praise for the President and 
getting the NATO countries to pay more of their share, but 
Ambassador Lute, you said that our single greatest challenge is 
the lack of real leadership now. I just want to put on the 
record the tweets, and I will use their word, the President's 
words, not just my paraphrasing of them.
    In July 2018 he said, ``While I had a great meeting with 
NATO raising vast amounts of money, I had an even better 
meeting with Vladimir Putin of Russia. Sadly, it is not being 
reported that way. The fake news is going crazy.'' Then he 
followed up and said, ``While the NATO meeting in Brussels was 
an acknowledged triumph with billions of dollars more put up by 
member countries, the meeting with Russia may prove to be in 
the long run an even greater success. Many positive things will 
come out of that meeting.''
    So what are our fellow members of the alliance supposed to 
think, do as I say or do as I do, or you do something different 
from the message that we are putting out? I can understand your 
frustration and I share it.
    I would like to talk about the contribution they make 
besides arms and besides dollars when you look at the countries 
of NATO. I serve on the House Democracy Partnership and we meet 
with a lot of new democracies trying to have exchanges between 
legislatures to buildup democratic institutions, whether it is 
parties, whether it is the media, whether it is the courts and 
the rule of law. You mentioned Ukraine and Georgia. Those are 
two partners.
    Would you just talk about how being part of NATO helps to 
either create, buildup, or strengthen democratic institutions, 
because I think that is one of our greatest successes, 
potentially.
    Ms. Flournoy. I will say just a few words and then hand it 
off. When we went through the first round of NATO expansion we 
had the Perry principles from Secretary Perry and there were 
certain criteria that we laid out for new, for NATO aspirants. 
One of them was you have to be a functioning democracy that 
protects minority rights. You had to be a free market economy. 
You had to make certain, meet certain milestones in terms of 
interoperability in your military capabilities and so forth.
    But democracy and has always been, whether it is at the 
founding of the alliance or the expansion of the alliance, it 
has always been a key criteria. And I will defer to others to 
add.
    Mr. Chollet. I agree with that. And I think that is a 
further reason for why enlargement in the open-door policy of 
enlargement has been so important and I think remains so 
important, because NATO serves as a kind of a magnet, an 
incentive system for countries to make those transition in 
countries in the post-Soviet space, the post-communist 
countries to make the kinds of decisions in terms of their 
political system, and also the way the role their militaries 
play within their governments because many of these countries 
coming out of the Soviet system, the military and the security 
service has played an outsized role in the governance of those 
countries.
    And so ensuring that their ministries of defense reform and 
that they are budgeted in a way with transparency is also 
critical to democratic health. So I think NATO, the values at 
NATO's core we need to keep them there, and NATO operationally 
by serving as a magnet and incentivizing countries to maintain 
their democratic core values will remain indispensable.
    Mr. Lute. So I applaud focus on this. You know, yesterday 
was the 20th anniversary of the welcoming of the first three 
post-cold war allies to the alliance, so Poland, Hungary, and 
the Czech Republic. Today, 20 years later, they are allies, 
right, and Poland and Hungary are among the worst in terms of 
slippage or backsliding on democratic values, which they signed 
up to when they joined the alliance.
    So going back to basics here and remembering what it takes 
to become a member of the alliance and then quietly, 
diplomatically, with discretion holding allies accountable is 
really a very important initiative both for the Secretary 
General, but ideally from the United States because we would be 
doing so from a position of example, of good example. And I am 
actually as an American citizen concerned today that we are not 
maybe as strong an example on these core principles as we have 
been in the past.
    Mr. Brzezinski. The alliance has been extremely effective 
in helping particularly transitioning countries to understand 
the value and importance of civilian control over the military 
and that has been its most direct contribution to democratic 
principles. As an alliance, as members, we contribute to 
democratic principles that Doug and others have talked about, 
not necessarily through NATO but more bilaterally.
    So when I think of NATO, I think of a political military 
organization whose primary mission is putting lead downrange, 
but as part of its contributions it helps governments more 
effectively do that by helping them institutionalize the 
culture and practices of civilian control of the military.
    Ms. Titus. Thank you, Mr. Chairman. I yield back.
    Mr. Engel. Well, thank you very much. I think this brings 
the hearing to an end. I want to thank our four excellent 
panelists. And you notice we had so much interest in it, so 
many people kept coming and leaving when they had to but making 
sure that they came back and it really was, I think, one of the 
best panels we have had and I want to thank all four of you for 
doing that.
    I want to remind the committee that at 2 o'clock we have a 
meeting with King Abdullah of Jordan over in the Capitol, so I 
would hope the members of the committee would attend that. And 
again I want to thank our witnesses and the hearing is now 
adjourned.
    [Whereupon, at 1:01 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
